1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRIDGE AINA LE‘A, LLC,
Plaintiff-Appellant/CrossAppellee,
v.
STATE OF HAWAII LAND USE COMMISSION; VLADIMIR P. DEVENS, in
his individual and official capacity; KYLE CHOCK, in his individual
and official capacity; NORMAND
ROBERT LEZY, in his individual
and official capacity; DUANE
KANUHA, in his official capacity;
CHARLES JENCKS, in his official
capacity; LISA M. JUDGE, in her
individual and official capacity;
NICHOLAS W. TEVES, JR., in his
individual and official capacity;
RONALD I. HELLER, in his individual and official capacity,
Defendants-Appellees/CrossAppellants.

Nos. 18-15738
18-15817
D.C. No.
1:11-cv-00414SOM-KJM
OPINION

Appeal from the United States District Court
for the District of Hawaii
Susan O. Mollway, District Judge, Presiding

2a
Argued and Submitted October 21, 2019
Honolulu, Hawaii
Filed February 19, 2020
Before: SUSAN P. GRABER, MILAN D. SMITH, JR.,
and PAUL J. WATFORD, Circuit Judges.
Opinion by Judge Milan D. Smith, Jr.
COUNSEL
Bruce D. Voss (argued), Matthew C. Shannon, and
John D. Ferry III, Bays Lung Rose & Holma, Honolulu,
Hawaii, for Plaintiff-Appellant/Cross-Appellee.
Ewan C. Rayner (argued), Deputy Solicitor General;
David D. Day, Deputy Attorney General; William J.
Wynhoff, Supervising Deputy Attorney General; Clyde
J. Wadsworth, Solicitor General; Department of the
Attorney General, Honolulu, Hawaii; for DefendantsAppellees/Cross-Appellants.
OPINION
M. SMITH, Circuit Judge:
This case stems from the reversion of the land use
classification of 1,060 acres of largely vacant and barren, rocky lava flow land in South Kohala, on the island
of Hawaii. In 2011, Defendant-Appellee and CrossAppellant the State of Hawaii Land Use Commission
(the Commission) ordered the land’s reversion from its
conditional urban use classification to its prior agricultural use classification. This reversion followed some
twenty-two years during which various landowners

3a
made unfulfilled development representations to the
Commission to obtain and maintain the land’s urban
use classification. Plaintiff-Appellant and CrossAppellee Bridge Aina Le‘a, LLC (Bridge), one of the
landowners at the time of the reversion, challenged the
reversion’s legality and constitutionality in a state
agency appeal, and in this case.
The cross-appeals here come to us following a final
judgment in a jury trial with a verdict for Bridge and
the district court’s denial of a post-judgment motion
for judgment as a matter of law (JMOL). Although the
parties raise several issues, we need decide only two.
First, we must decide whether the State1 was entitled
to JMOL on Bridge’s claims that the reversion was a
regulatory taking in violation of the Fifth Amendment.
After an eight-day jury trial, the jury found that the
reversion was such a taking. The State urges us to reverse on the ground that Bridge’s evidence did not establish a taking. Second, we must decide whether the
Hawaii Supreme Court’s adjudication of Bridge’s equal
protection challenge in the state agency appeal barred
1

We use the term “the State” to refer collectively to the
Commission and the commissioners whom Bridge sued in their
official capacities. See Hafer v. Melo, 502 U.S. 21, 25 (1991) (“Suits
against state officials in their official capacity . . . should be
treated as suits against the State.”). The commissioners whom
Bridge named in their official capacities are: Vladimir P. Devens,
Kyle Chock, Normand R. Lezy, Lisa M. Judge, Nicholas W. Teves,
Jr., Ronald I. Heller, Duane Kanuha, Thomas Contrades, and
Charles Jencks. Bridge sued all but the last two commissioners—
neither of whom voted for the reversion—in their individual
capacities as well. Commissioner Contrades died during the
pendency of this litigation before the district court.

4a
the same issue Bridge alleged here. See DW Aina Le‘a
Dev., LLC v. Bridge Aina Le‘a, LLC, 339 P.3d 685 (Haw.
2014). Bridge contends that the Hawaii Supreme
Court neither decided the same equal protection issue
Bridge raised in this lawsuit, nor issued a final judgment on the merits in which Bridge had a full and fair
opportunity to litigate the issue.
We reverse the denial of the State’s renewed
JMOL motion because, as a matter of law, the evidence
did not establish an unconstitutional regulatory taking. We vacate the judgment and remand. We affirm
the district court’s dismissal of Bridge’s equal protection claim.
FACTUAL AND PROCEDURAL BACKGROUND
I.

The Reclassification History of the 1,060
Acres
A. The Conditional Urban Reclassification

For over forty years before the reclassification, the
1,060 acres at issue were vacant and part of a larger
3,000 acre-parcel zoned for agricultural use. This classification generally restricted the landowner to certain
statutorily specified uses. See Haw. Rev. Stat. § 2052(d)(1)–(16) (setting forth the general uses for agricultural land); see also id. § 205-4.5 (elaborating on
permissible uses of agricultural land depending on soil
ratings). The landowner also could petition to obtain a
permit for “certain unusual and reasonable uses.” Id.
§ 205-6(a).

5a
In 1987, non-party Signal Puako Corporation (Signal), the then-landowner, decided that it would seek
to develop a mixed residential community on the 1,060
acres as the first phase of a development project on
the entire 3,000 acres. To do so, Signal petitioned the
Commission to reclassify 1,060 acres as urban pursuant to Hawaii’s land use reclassification procedure. See
Haw. Rev. Stat. § 205-4(a). If the land were zoned for
urban use, Signal could pursue “activities or uses as
provided by ordinances or regulations of the county
within which the urban district is situated.” Id. § 2052(b).
The Commission approved the petition in a January 1989 order (the 1989 Order). In doing so, the Commission exercised its authority to “modify the petition
by imposing conditions necessary . . . to assure substantial compliance with representations made by the
petitioner in seeking a boundary change.” Id. § 2054(g). In relevant part, Condition One required Signal
to make 60% of the proposed 2,760 residential units
affordable, for a total of 1,656 affordable housing units.
Condition Nine required Signal to develop the land in
substantial compliance with representations made to
obtain reclassification. The 1989 Order did not specify
any deadlines, nor did the order specify any penalties
for noncompliance. Nevertheless, the conditions the
Commission imposed ran with the title to the land.
Id.
At some point, non-party Puako Hawaii Properties
(Puako), an entity in which Signal was a partner, took
title to the 3,000 acres. Puako proposed a mixed

6a
residential community which would have fewer total
housing units than Signal’s proposal and for which
construction would end by 1999. Puako therefore petitioned to modify the 1989 Order.
The Commission approved Puako’s petition in a
July 1991 order (the 1991 Order) with conditions. Like
the 1989 Order, the 1991 Order required Puako to
make 60% of the residential units affordable housing.
But the 1991 Order reduced the required affordable
housing units to 1,000 units given the reduction to the
proposed development’s total number of units. The
1991 Order again imposed a condition requiring Puako
to develop the land in substantial compliance with its
representations. This time, the Commission specified
that “[f ]ailure to so develop the Property may result
in reversion of the Property to its former classification
or change to a more appropriate classification.”2

2

This language tracked a 1990 amendment to the Commission’s statutory authority to impose reclassification conditions
pursuant to Hawaii Revised Statute § 205-4(g). The statute specifies that “[t]he commission may provide by condition that absent
substantial commencement of use of the land in accordance with
such representations, the commission shall issue and serve upon
the party bound by the condition an order to show cause why the
property should not revert to its former land use classification or
be changed to a more appropriate classification.” Haw. Rev. Stat.
§ 205-4(g); see also DW Aina Le‘a Dev., 339 P.3d at 709 (“This sentence was added to [ ] § 205-4(g) in 1990. The legislative history
indicates that the legislature sought to empower the [Commission] to void a district boundary amendment where the petitioner
does not substantially commence use of the land in accordance
with representations made to the [Commission].” (citations and
emphasis omitted)).

7a
Notwithstanding Puako’s representations, the
1,060 acres remained undeveloped by 1999. Bridge
acquired the entire 3,000 acres at this time—inclusive
of the 1,060 acres of conditionally reclassified urban
land—for $5.2 million plus closing costs under its thenname Bridge Puako, LLC.
B. The Post-Acquisition Amendments to the
Conditions
In September 2005, nearly six years after acquiring the land, Bridge moved to amend the 1991 Order
in part. Like the prior landowners, Bridge proposed a
mixed residential community. Bridge, however, argued
that the cost of complying with the 1991 Order’s affordable housing condition was too high. According to
Bridge, it would be economically infeasible to develop
the property without a lower level of required affordable housing units. Bridge contended that an appropriate benchmark would be the 20% level set by a thenrecent County of Hawaii affordable housing ordinance.
The Commission amended the affordable housing
condition in a November 2005 order (the 2005 Order).
Condition One set the affordable housing unit requirement at 20%, requiring Bridge to build a minimum of
385 units. For the first time, the Commission set a
deadline for the condition. Specifically, Bridge had to
provide occupancy certificates for all affordable housing units by November 17, 2010. The Commission affirmed all other conditions of the 1989 Order, as
amended by the 1991 Order.

8a
Throughout 2006 and 2007, Bridge appeared before the Commission to assure the Commission of its
compliance with the conditions, including through the
apparent construction of wells, roads, and other infrastructure. According to Bridge, however, further progress “was hampered somewhat” by the requirement
that Bridge prepare an environmental impact statement for the project in accordance with Sierra Club v.
Department of Transportation, 167 P.3d 292 (Haw.
2007).
C. The Order to Show Cause (OSC)
As early as September 2008, several commissioners expressed concerns that Bridge’s status reports
“showed ‘no activity’ with respect to the conditions
imposed by the 1991 decision and order, as amended in
2005.” DW Aina Le‘a Dev., 339 P.3d at 693. In December
2008, the Commission ordered Bridge to show cause
why the land should not revert to its prior agricultural
use classification. The Commission explained that it
had reason to believe that Bridge and its predecessors
had failed to satisfy multiple reclassification conditions and had not fulfilled various representations.
The Commission held the first OSC hearing in
January 2009. Notwithstanding the potential impact
ongoing OSC proceedings might have on the use of the
land, Bridge agreed to sell the 1,060 acres to non-party
DW Aina Le‘a Development, LLC (DW). Pursuant to a
February 2009 written agreement, Bridge was to convey the land in three phases in exchange for a total of

9a
$40.7 million.3 Bridge and DW would enter into a joint
agreement, in which Bridge would develop the nearly
2,000 agricultural use acres remaining in its possession. Bridge would retain the right to plan for the overall 3,000 acres, including the placement of a sewage
treatment plant, school, and park on the agricultural
land.
On April 30, 2009, the Commission reconvened to
discuss the OSC. Bridge represented to the Commission that it was in the process of transferring the 1,060
acres to DW, which would assume the responsibility
of constructing the 385 affordable housing units. The
State Office of Planning advocated for reversion, noting that Bridge indicated that it could not complete
the 385 affordable housing units by the November
2010 deadline. Various commissioners expressed dismay at what they viewed as unfulfilled promises made
to obtain the reclassification.
At the conclusion of the hearing, the Commission
held a voice vote on the OSC (the 2009 Voice Vote), in
which seven commissioners voted to revert the zoning
of the 1,060 acres to agricultural use. The Commission
never put the result of the vote into a final written
order.

3

This agreement replaced the prior 2008 sale agreement
between Bridge and non-party Relco Corporation (Relco). Bridge
and Relco amended that agreement before it closed so that Relco
could give its interest to DW. Relco, however, was DW’s managing
entity.

10a
After the 2009 Voice Vote, DW did not make any
payments due pursuant to the February 2009 sale
agreement. Nevertheless, in the month following the
vote, DW intervened in the OSC proceedings and advised the Commission that any reversion would make
development impossible, including providing the 385
affordable housing units. DW moved to stay any decision and order pending consideration of additional information, including an overall conceptual plan for
the project and an affordable housing unit site plan.
The Commission agreed to stay the proceedings in
June 2009.
In August 2009, Bridge and DW co-petitioned the
Commission to rescind the OSC, contending that they
had performed, or were in the process of performing,
all the conditions the OSC cited. They also contended
that the 2009 Voice Vote “put an immediate and substantial cloud over the Project, making it extremely
difficult in this economic environment to secure shortterm or long-term financing to develop and complete
the Project.” Nevertheless, Bridge and DW represented
that DW would still pursue completion of the 385 units
by November 17, 2010, and that the units “will be provided” if the Commission rescinded the OSC. The Commission rescinded the OSC in September 2009, subject
to the single “condition precedent” of requiring the construction of sixteen affordable units by March 31, 2010.
Following the OSC’s rescission, Bridge and DW
modified their sale agreement in December 2009 to
change the timing of purchases but they retained the
previously agreed-upon $40.7 million price. DW would

11a
buy a 60-acre affordable housing parcel for $5 million,
effective December 11, 2009. DW also would pay
Bridge “development expenses” of some $1.191 million
for that parcel. The final closing date for the remaining
1,000 acres was set for February 28, 2010, by which
point DW would have paid Bridge an additional $35.7
million. Consistent with this agreement, DW purchased the 60-acre parcel from Bridge in December
2009.
D. The Resumption of OSC Proceedings and
the Reversion Order
On June 10, 2010, DW informed the Commission
that it had completed the sixteen affordable housing
units by the March 2010 deadline. In response, the
State Office of Planning informed the Commission that
the units were not habitable because they lacked water, a sewage system, electricity, and paved road access.
The Commission held a compliance hearing in
July 2010, at which both Bridge and DW appeared. DW
admitted that it lacked the money to build on the remaining 1,000 acres. The State Office of Planning requested that the Commission reopen the OSC and
advocated for reversion so that a “bona fide developer”
could make a new proposal. All commissioners voted to
reinstate the OSC, scheduled an OSC hearing, and entered a finding that the condition precedent had not
been satisfied. About two weeks thereafter, the Commission issued an order reinstating the OSC and reiterating the 2005 Order’s November 17, 2010 deadline

12a
to obtain 385 affordable housing unit occupancy certificates. Bridge contends that after the reinstatement,
DW failed to make the additional $35.7 million in payments for the remaining urban land as contemplated
by the modified December 2009 agreement.
Bridge and DW moved to bar action on the OSC,
arguing that the Commission’s enforcement actions,
starting with the OSC, violated various Hawaii statutes and administrative rules. At the conclusion of a
second OSC hearing, however, five commissioners
voted to revert the land. With the approval of a sixth
commissioner, the Commission issued a final reversion
order (the Reversion Order) on April 25, 2011.
The Reversion Order found that Bridge and DW
had failed to comply with the 2005 Order’s affordable
housing condition, specifically noting that Bridge and
DW had not completed 385 affordable housing units
by the deadline and were unlikely to do so in the near
future. Although the order acknowledged that Bridge
and DW had constructed sixteen affordable housing
units, the order determined that there was no infrastructure connected to them. The order outlined violations of the 1991 Order’s substantial compliance
condition based on representations made to the Commission between 2005 and 2010. The order also found
that Bridge’s and DW’s procedural due process rights
were not violated because they had received a full and
fair opportunity to present their case. The order declined to resolve Bridge’s equal protection challenge.

13a
At the time of the Reversion Order, DW had purchased only the 60-acre affordable housing parcel
while Bridge still owned the remaining 1,000 acres.
The closing dates for the remaining 1,000 urban acres
had passed several months earlier without DW making the additional $35.7 million in agreed-upon payments to Bridge.
II.

The Direct Agency Appeal of the Reversion
Order

Bridge and DW appealed the Reversion Order to
a Hawaii circuit court. Although the court declined to
preliminarily stay the Reversion Order, the court issued an amended final judgment in June 2012 in
Bridge’s favor. The court determined that the Commission had violated various Hawaii statutory procedural
requirements in issuing the Reversion Order. The
court also determined that the process by which the
Commission issued the order violated Bridge’s and
DW’s federal and state constitutional due process and
equal protection rights. Thus, the circuit court vacated
the Reversion Order and voided the OSC.
On appeal, the Hawaii Supreme Court affirmed in
part and vacated in part the circuit court’s judgment.
The Hawaii Supreme Court acknowledged the Commission’s authority to revert the land use classification,
as well as the propriety of the December 2008 OSC.
DW Aina Le‘a Dev., 339 P.3d at 711, 713. The court,
however, affirmed the circuit court’s determination

14a
that the Reversion Order violated applicable statutory
procedural requirements.
The Hawaii Supreme Court explained that a reversion may or may not be subject to certain procedural requirements. Id. at 709–10. If a petitioner fails
to substantially commence use of the land in accordance with its representations, then the Commission
may revert a land use classification pursuant to Hawaii
Revised Statute § 205-4(g) subject to a limited procedure. Id. at 710. However, if a petitioner has substantially commenced use, the Commission must follow the
requirements of Hawaii Revised Statute § 205-4(h).
Id. at 689, 714. The court determined that Bridge and
DW had substantially commenced use after the Commission rescinded the OSC because DW actively prepared development plans and constructed sixteen
affordable housing units by March 31, 2010. Id. at 712–
14. Thus, the Commission had to find within 365 days
of the OSC’s initial issuance and by a “clear preponderance of the evidence” that reversion was reasonable,
did not violate Hawaii Revised Statute § 205-2 and was
otherwise consistent with the policies and criteria set
forth in Hawaii Revised Statute §§ 205-16 and 205-17.
Id. at 714; see also Haw. Rev. Stat. § 205-4(h). The Commission had failed to do so. DW Aina Le‘a Dev., 339
P.3d. at 714.
The Hawaii Supreme Court vacated the remainder of the circuit court’s judgment. With respect to
the due process ruling, the Hawaii Supreme Court
concluded that Bridge and DW had received notice
and a meaningful opportunity to be heard before the

15a
reversion. Id. at 716. Noting that “the land had
changed hands numerous times,” that the Commission
“had amended the original reclassification order on
multiple occasions,” and the “long history of unfulfilled
promises made in connection with the development of
this property,” the court determined that the reversion
was not “arbitrary and unreasonable.” Id. at 717. With
respect to equal protection, the court could not find
that the Commission lacked a rational basis for its
treatment of Bridge and DW “[g]iven the long history
of this property and the [Commission’s] dealings with
the landowners over the course of many years.” Id. at
718. The court otherwise reasoned that the Commission acted pursuant to its broad statutory authority to
impose conditions and its related authority to enforce
such conditions. Id. The court remanded for proceedings consistent with its decision. Id.
III. The Proceedings in this Case
Although Bridge and DW together pursued the
agency appeal, Bridge alone sued the Commission and
commissioners in Hawaii state court in June 2011.4
Bridge’s eleven-count complaint for declaratory, injunctive, and monetary relief raised federal and state
4

DW sued the Commission in Hawaii state court in 2017,
asserting federal and state constitutional taking claims. After the
case’s removal to federal court, a district court dismissed DW’s
claims as barred by the Hawaii statute of limitations. Our court
has certified to the Hawaii Supreme Court a question regarding
the proper statute of limitations for a taking claim raised pursuant to Hawaii law. See DW Aina Le‘a Dev., LLC v. Haw. Land Use
Comm’n, 918 F.3d 602, 609 (9th Cir. 2019) (certification order).

16a
constitutional due process, equal protection, and taking claims. Bridge sued all commissioners in their official capacities and sued the six commissioners who
had voted for the Reversion Order in their individual
capacities as well. Alleging that the $40.7 million DW
agreed to pay for the 1,060 acres was the land’s fair
market value, Bridge claimed “not less” than $35.7
million in damages.
The State removed the case to federal court and
moved to dismiss. Before ruling on that motion, the
district court ordered a stay of the proceedings pending
the agency appeal, an order which the parties crossappealed to our court. After the Hawaii Supreme
Court’s decision, we remanded to the district court.
Bridge Aina Le‘a, LLC v. Chock, 590 F. App’x 705 (9th
Cir. 2015) (unpublished).
On remand, the district court granted the State’s
motion to dismiss, which concerned only some of
Bridge’s claims. The court dismissed Bridge’s due process and equal protection claims, reasoning that the
Hawaii Supreme Court’s decision barred re-litigation
of the same issues. Applying the doctrine of quasijudicial immunity, the court dismissed Bridge’s individual capacity claims against the commissioners who
voted for reversion. Ultimately, only Bridge’s taking
claims proceeded to trial on the theory that the reversion was an unconstitutional regulatory taking pursuant to the analyses in Lucas v. South Carolina Coastal
Council, 505 U.S. 1003 (1992), and Penn Central Transportation Company v. City of New York, 438 U.S. 104
(1978).

17a
A jury trial was held between March 13 and 23,
2018. After Bridge put on its case-in-chief, the State
moved for JMOL on the grounds that Bridge had not
established either a Lucas or Penn Central taking and,
even if it had, Bridge should receive only nominal damages because Bridge lacked admissible evidence of just
compensation. The district court granted the motion as
to nominal damages but denied it as to taking liability.
Using the 1,060 acres subject to the Reversion Order
as the relevant property denominator at the court’s
instruction, the jury found that a taking occurred pursuant to both Lucas and Penn Central. The district
court entered judgment for Bridge and awarded $1 in
nominal damages.
Following the entry of judgment, the State renewed its JMOL motion and alternatively requested a
new trial using 3,000 acres as the property denominator. The parties cross-appealed the judgment during
the pendency of the renewed motion, and the appeals
became effective upon the district court’s denial of that
motion. The State timely appealed the denial.
JURISDICTION AND STANDARDS OF REVIEW
We have jurisdiction over the appeals from the final judgment pursuant to 28 U.S.C. § 1291. We also
have jurisdiction over the appeal from the previously
nonfinal orders that have merged with the final judgment, Hall v. City of Los Angeles, 697 F.3d 1059, 1070–
71 (9th Cir. 2012), and over the denial of the renewed

18a
JMOL motion, Wadler v. Bio-Rad Labs., Inc., 916 F.3d
1176, 1185 (9th Cir. 2019).
We review de novo the denial of a renewed JMOL
motion. Reese v. County of Sacramento, 888 F.3d 1030,
1036 (9th Cir. 2018). “ ‘[W]hen reviewing a motion for
judgment as a matter of law, we apply the law as it
should be, rather than the law as it was read to the
jury,’ even if the party did not object to the jury instructions.” Fisher v. City of San Jose, 558 F.3d 1069, 1074
(9th Cir. 2009) (en banc) (alteration in original) (quoting Pincay v. Andrews, 238 F.3d 1106, 1109 n.4 (9th Cir.
2001)). A renewed JMOL motion “is properly granted
only if the evidence, construed in the light most favorable to the nonmoving party, permits only one reasonable conclusion, and that conclusion is contrary to the
jury’s verdict.” Castro v. County of Los Angeles, 833
F.3d 1060, 1066 (9th Cir. 2016) (en banc) (internal quotations and citation omitted). “A jury’s verdict must
be upheld if it is supported by . . . evidence adequate to
support the jury’s conclusion, even if it is also possible
to draw a contrary conclusion.” Pavao v. Pagay, 307
F.3d 915, 918 (9th Cir. 2002).
We review de novo the dismissal of a claim pursuant to Federal Rule of Civil Procedure 12(b)(6), United
States ex rel. Anita Silingo v. WellPoint, Inc., 904 F.3d
667, 676 (9th Cir. 2018), as well as the district court’s
issue preclusion ruling, Garity v. APWU Nat’l Labor
Org., 828 F.3d 848, 854 (9th Cir. 2016) (citation omitted).

19a
ANALYSIS
I.

The State’s Renewed JMOL Motion on
Bridge’s Taking Claims

Our core focus in this appeal is the district court’s
denial of the State’s renewed JMOL motion on Bridge’s
Lucas and Penn Central taking challenges to the reversion pursuant to the Fifth Amendment’s Takings
Clause.5 As we explain, as matter of law, Bridge’s evidence failed to establish a taking pursuant to either.
Accordingly, it is unnecessary for us to consider the
other taking issues that the parties raise on appeal.
A. The Fifth Amendment Regulatory Takings Framework
“The Takings Clause of the Fifth Amendment
states that ‘private property [shall not] be taken for
public use, without just compensation.” Knick v. Twp.
of Scott, 139 S. Ct. 2162, 2167 (2019) (alterations in
original). By its terms, the clause “does not prohibit the
5

Bridge also asserted takings claims pursuant to the Hawaii
Constitution, which provides that “[p]rivate property shall not
be taken or damaged for public use without just compensation.”
Haw. Const. art. 1, § 20. The Hawaii Supreme Court has endorsed
federal regulatory takings jurisprudence in determining whether
government action is a taking in violation of the Hawaii Constitution. Leone v. County of Maui, 404 P.3d 1257, 1270–71 (Haw.
2017) (acknowledging the Lucas and Penn Central tests). Because
Bridge raises no distinct and separate arguments regarding its
state law takings claims and given the Hawaii Supreme Court’s
reliance on the federal regulatory takings framework, our Lucas
and Penn Central analyses apply equally to Bridge’s state law
takings claims.

20a
taking of private property,” but instead requires “compensation in the event of [an] otherwise proper interference amounting to a taking.” First English
Evangelical Lutheran Church of Glendale v. County of
Los Angeles, 482 U.S. 304, 314, 315 (1987). A classic
taking occurs when the “government directly appropriates private property or ousts the owner from his domain.” Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 539
(2005).
Beyond a classic taking, the Supreme Court has
recognized that “if regulation goes too far it will be
recognized as a taking.” Pa. Coal Co. v. Mahon, 260 U.S.
393, 415 (1922). There are three types of regulatory action the Court has recognized, “each of which ‘aims to
identify regulatory actions that are functionally equivalent to the classic taking.’ ” Cedar Point Nursery v.
Shiroma, 923 F.3d 524, 530–31 (9th Cir. 2019) (quoting
Lingle, 544 U.S. at 539). Two types of regulatory actions—Loretto and Lucas takings—are per se takings.6
Id. at 531. Penn Central takings are the third type of
regulatory taking. Id.
Generally, courts determine whether a regulatory
action is functionally equivalent to the classic taking
using “essentially ad hoc, factual inquiries, designed to
6

A Loretto taking occurs “where government requires an
owner to suffer a permanent physical invasion of her property.”
Lingle, 544 U.S. at 538 (citing Loretto v. Teleprompter Manhattan
CATV Corp., 458 U.S. 419 (1982)). This “relatively narrow” per se
rule requires the government to provide compensation, however
minor the physical invasion. Id. Bridge’s land did not suffer a permanent physical invasion, and thus Loretto does not apply.

21a
allow careful examination and weighing of all the relevant circumstances.” Tahoe-Sierra Pres. Council, Inc.
v. Tahoe Reg’l Planning Agency, 535 U.S. 302, 322
(2002) (citations and internal quotation marks omitted). These inquiries are set forth in the three Penn
Central factors: (1) “[t]he economic impact of the regulation on the claimant,” (2) “the extent to which the
regulation has interfered with distinct investmentbacked expectations,” and (3) “the character of the governmental action.” Penn Central, 438 U.S. at 124.
Certain regulatory actions, however, are treated
categorically as a taking without the necessity of the
Penn Central inquiry. The Lucas rule “applies to regulations that completely deprive an owner of ‘all economically beneficial us[e]’ of her property.” Lingle, 544
U.S. at 538 (alteration in original) (quoting Lucas, 505
U.S. at 1019). Government regulations that constitute
such a taking are typically those that require land to
be left substantially in its natural state. Lucas, 505
U.S. at 1018. This is a “relatively narrow” and relatively rare taking category, Lingle, 544 U.S. at 538,
confined to the “extraordinary circumstance when no
productive or economically beneficial use of land is
permitted,” Lucas, 505 U.S. at 1017 (emphasis in original).7 Compensation is required in such a case unless
the government can show that underlying principles of
7

One review of some 1,700 taking cases in state and federal
courts decided over 25 years identified only 27 cases in which a
landowner successfully brought a Lucas claim, i.e. 1.6%. See Carol
N. Brown & Dwight H. Merriam, On the Twenty-Fifth Anniversary of Lucas: Making or Breaking the Takings Claim, 102 IOWA
L. REV. 1847, 1849-50 (2017).

22a
state property or nuisance law would have led to the
same outcome as the challenged regulation. See TahoeSierra, 535 U.S. at 330; Lucas, 505 U.S. at 1029.
Here, the jury made dual findings that there was
an unconstitutional taking of Bridge’s property pursuant to both Lucas and Penn Central. The district court
determined that either finding independently supported the verdict.
We underscore at the outset that when “a regulation ‘denies all economically beneficial or productive
use of land,’ the multi-factor analysis established in
Penn Central is not applied” because Lucas supplies
the relevant rule. Esplanade Props., LLC v. City of
Seattle, 307 F.3d 978, 984 (9th Cir. 2002) (quoting Lucas,
505 U.S. at 1027). When “a regulation places limitations on land that fall short of eliminating all economically beneficial use, a taking nonetheless may have
occurred, depending on” the Penn Central framework.
Palazzolo v. Rhode Island, 533 U.S. 606, 617 (2001) (citing Penn Central, 438 U.S. at 124). Thus, if the jury
could find that the reversion deprived Bridge of all economically beneficial uses of the 1,060 acres, then Penn
Central was inapplicable. Only if the reversion fell
short of a total taking was application of Penn Central
necessary. We apply this approach in considering the
State’s arguments.
B. Lucas Taking
Although the State raises several challenges to
the jury’s Lucas finding, the State’s core challenges to

23a
that finding are that the land retained substantial residual value in its agricultural use classification and
that this classification still allowed Bridge to use the
land in economically beneficial ways. We agree and
thus decline to reach the State’s alternative challenges
to the jury’s Lucas finding.
We recognize that shortly after the Supreme Court
announced the Lucas rule, we remarked that “the term
‘economically viable use’ has yet to be defined with
much precision.” Outdoor Sys., Inc. v. City of Mesa, 997
F.2d 604, 616 (9th Cir. 1993). Acknowledging the lack
of precision in this concept, we stated that “the value
of the subject property” is “relevant” to the Lucas inquiry, but we rejected “focusing solely on property
values.” Del Monte Dunes at Monterey, Ltd. v. City of
Monterey, 95 F.3d 1422, 1433 (9th Cir. 1996), aff ’d, 526
U.S. 687 (1999). Pointing to this passage in Del Monte
Dunes, Bridge urges us to reject the State’s arguments
regarding the role of value in the Lucas context.
Subsequent developments in the Supreme Court’s
takings decisions, however, lead to three observations
that guide our resolution of the parties’ arguments
here. First, the Court has made clear that “[i]n the
Lucas context, . . . the complete elimination of a property’s value is the determinative factor.” Lingle, 544
U.S. at 539 (emphasis added). As the Court has underscored, “the categorical rule in Lucas was carved out
for the ‘extraordinary case’ in which a regulation permanently deprives property of all value.” Tahoe-Sierra,
535 U.S. at 332. “Anything less than a ‘complete elimination of value,’ or a ‘total loss’ . . . would require the

24a
kind of analysis applied in Penn Central.” Id. at 330
(quoting Lucas, 505 U.S. at 1019 n.8). Second, although
value is determinative, use is still relevant. See Murr
v. Wisconsin, 137 S. Ct. 1933, 1949 (2017) (concluding
that the challenged regulations did not deprive the
landowners of all economically beneficial use because
“[t]hey can use the property for residential purposes”
and “[t]he property has not lost all economic value”).
Finally, the Court has clarified that a token interest
will not defeat a Lucas claim. See Palazzolo, 533 U.S.
at 631 (“Assuming a taking is otherwise established,
a State may not evade the duty to compensate on the
premise that the landowner is left with a token interest.”). Guided by these observations, we conclude that
Bridge’s evidence did not satisfy Lucas.
1. The Land Retained Substantial Economic Value
We turn first to the land’s value. Bridge relied on
the expert testimony of Steven Chee to opine on the
fair market value of the 1,060 acres in the urban and
agricultural land use classifications before and after
reversion. Chee expressly assumed that the 2009 Voice
Vote on April 30, 2009 reverted the land. Although this
assumption is demonstrably wrong, this testimony is
the only valuation evidence in the record. We therefore
address the argument as Bridge frames it.
Chee appraised the fair market value of the 1,060
acres by determining the highest and best use of the
land in each classification, a metric “shaped by the

25a
competitive forces within the market where the property is located.” First, Chee opined that the land had
a value of $40 million on April 29, 2009 in an urban
classification based on land banking until market conditions improved given the significant off-site work
necessary before the land could be developed and
the ongoing impacts of the Great Recession. Second,
Chee opined that the land had a value of $6.36 million
on April 30, 2009 in an agricultural classification.
Although Chee did not presume that reclassification
would be obtained, the agricultural use valuation accounted for land banking while simultaneously attempting to regain the former urban classification.8
The difference reflects an 83.4% diminution in value.
The State contends that this evidence shows that
the land retained substantial residual value in an agricultural use classification and that any diminution
in value was less than the land’s total value. We agree.
Absent more, there is no Lucas liability for this less
than total deprivation of value. See Appolo Fuels, Inc.
v. United States, 381 F.3d 1338, 1347 (Fed. Cir. 2004)
(concluding that a 92% loss of value in one part of the
land and a 78% loss in another part “is manifestly insufficient” under Lucas); Cienega Gardens v. United
States, 331 F.3d 1319, 1344 (Fed. Cir. 2003) (concluding
8

We understand Chee’s evidence to account for a realistic
probability that the urban classification would be regained based
on Chee’s trial testimony that an appraiser will consider the possibility of rezoning if it “looks highly realistic.” In actuality, we
also know that Bridge did regain the conditional urban classification roughly a year after the reversion because of the circuit
court’s judgment.

26a
that Lucas requires a loss of “100% of a property interest’s value”); Cooley v. United States, 324 F.3d 1297,
1305 (Fed. Cir. 2003) (“Contrary to the trial court’s
holding, the record shows that the 1993 denial apparently destroyed less than all of Cooley’s property’s
value, which constitutes a non-categorical taking. The
categorical takings directives of Lucas do not apply.”).
In rejecting the State’s arguments, the district
court reasoned that value was relevant to but not dispositive of the Lucas inquiry by relying on our discussion on value versus use in Del Monte Dunes. This was
error because, as we have explained, the Supreme
Court’s precedents underscore that value is determinative. See Lingle, 544 U.S. at 539; Tahoe-Sierra, 535
U.S. at 330. We have stated as much in a decision
that the district court acknowledged but interpreted
as irrelevant. See Horne v. U.S. Dep’t of Agric., 750 F.3d
1128, 1141 n.17 (9th Cir. 2014) (“Lucas plainly applies
only when the owner is deprived of all economic benefit
of the property. If the property retains any residual
value after the regulation’s application, Penn Central
applies.” (citation omitted) (emphasis in original)),
overruled on other grounds by Horne v. Dep’t of Agric.,
135 S. Ct. 2419 (2015).
The district court also wrote off the substantial residual value that Bridge’s evidence found in the land’s
agricultural use classification by pointing to our observation in Del Monte Dunes that if “no competitive market exists for the property without the possibility of
development, a taking may have occurred.” 95 F.3d at
1433. The district court read this passage to mean that

27a
the jury could find that Lucas applied here if no competitive market existed for the land without a change
in the regulation. Bridge reprises this reasoning here.
Del Monte Dunes does not control here. There, we
determined that “the mere fact that there is one willing buyer of the subject property, especially where that
buyer is the government, does not, as a matter of law,
defeat a taking claim” when the “government action
relegates permissible uses of property to those consistent with leaving the property in its natural state
(e.g., nature preserve or public space).” Id. at 1433.
Thus, the fact that the government purchased the land
subject to the challenged regulation that the government put in place did not defeat a Lucas theory. Unlike
in Del Monte Dunes, the Commission neither attempted to buy the subject property, nor was Bridge
captive to a single buyer exercising its regulatory
power. Moreover, the Commission thought that reversion would encourage Bridge to sell the property so
that a new developer could make a new proposal, suggesting that Bridge could have sold the land in a competitive market with a possibility of a regulatory
change.
In the end, the relevant inquiry for us is whether
the land’s residual value reflected a token interest or
was attributable to noneconomic use. See Palazzolo,
533 U.S. at 631 (concluding that a 93% loss in value
was insufficient for Lucas because the value was attributable to economic use, specifically residential use);
Lost Tree Vill. Corp. v. United States, 787 F.3d 1111,
1115–17 (Fed. Cir. 2015) (concluding that the Lucas

28a
rule applied to a 99.4% deprivation because the residual value was attributable to noneconomic uses). We do
not think either situation applies here.
The land’s $6.36 million value in an agricultural
use classification was neither de minimis, nor did the
value derive from noneconomic uses. Bridge’s expert
valued the land in a competitive market using pricing
for similarly situated properties, and expressly accounted for the possibility of regaining the urban use
classification. Lucas does not apply when “substantial
present value” stems from “future use” of the land. See
Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg’l Planning Agency, 216 F.3d 764, 781 n.26 (9th Cir. 2000),
overruled on other grounds by Gonzalez v. Arizona, 677
F.3d 383 (9th Cir. 2012). Thus, the land’s value in the
agricultural use classification precludes a Lucas finding here.
2. The Reversion Did Not Deprive Bridge
of All Economically Viable Uses of the
Land
As a secondary matter, the permissible uses of
land classified as agricultural reinforce our conclusion
that the reversion did not completely deprive Bridge
of all economically viable uses of the 1,060 acres as a
matter of law. “[T]he existence of permissible uses determines whether a development restriction denies a
property owner economically viable use of his property.” Del Monte Dunes, 95 F.3d at 1432 (emphasis
added); Outdoor Systems, 997 F.2d at 616. “[W]here an

29a
owner is denied only some economically viable uses, a
taking still may have occurred” pursuant to the Penn
Central analysis, but not pursuant to the Lucas rule.
Del Monte Dunes, 95 F.3d at 1432 (emphasis added).
Hawaii law permits an array of uses for land classified as agricultural. See Haw. Rev. Stat. § 205-2(d)(1)–
(16).9 In addition, a landowner may obtain a permit
for “certain unusual and reasonable uses within agricultural . . . districts other than those for which the
district is classified.” Id. § 205-6(a). There are no express limitations on such specially permitted uses.10
9

These uses include: (1) crop cultivation activities and uses;
(2) farming activities or uses related to animal husbandry and
game and fish propagation; (3) aquaculture (i.e., the production of
aquatic plant and animal life within ponds); (4) wind-generated
energy production for public, private, and commercial use; (5) biofuel production for public, private, and commercial use; (6) solar
energy facilities; (7) bona fide agricultural activities and uses that
support such activities, including accessory buildings; (8) wind
machines and wind farms; (9) small-scale meteorological, air
quality, noise, and other scientific and environmental data collection; (10) agricultural parks; (11) agricultural tourism conducted
on a working farm, or a farming operation; (12) agricultural tourism activities; (13) open area recreational facilities, (14) geothermal resources exploration, (15) agricultural-based commercial
operations registered in Hawaii; and (16) hydroelectric facilities.
See Haw. Rev. Stat. § 205-2(d).
10
Trial testimony showed that prior examples of specially
permitted uses in an agricultural district included: rock quarrying operations; cinder and sand mining facilities; concrete batching plants; construction waste facilities; landfills; public and
private sewage treatment plants; gardens and zoos; schools (prekindergarten to college); memorial parks, including crematoria,
commercial facilities, including post offices and gas stations; private storage facilities; construction yards; maintenance facilities;
and telecommunications facilities and structures.

30a
Against this statutory backdrop, we do not see how this
case is like Lucas. The mere reclassification of the
1,060 acres from urban use to an agricultural use did
not prohibit all development, nor did it require leaving
the land in an idle state. See Lucas, 505 U.S. at 1008.
Although Bridge offered evidence suggesting that
many of the statutorily permitted uses would not have
been economically feasible, Bridge did not address all
of the statute’s permitted uses or account for any of
the uses for which the Commission had granted special
permits in the past, such as a sewage treatment plant
or rock quarrying. Some of the specially permitted
uses may have been especially suitable for this land.
Bridge intended to place a sewage treatment plant on
the adjacent 2,000 acres of agriculturally zoned land.
Bridge’s own witnesses also recognized that the land
was “good for growing rocks.” Based on the evidence
that Bridge presented, we do not think that the jury
could have reasonably found that the reversion deprived Bridge of all economically feasible uses of the
land.
Bridge otherwise draws our attention to the Commission’s findings in the 1989 and 1991 Orders that
the soils were rated poorly and were not adequate for
grazing to suggest that there were no viable uses in an
agricultural use zone. By definition, however, “[a]gricultural districts include areas that are not used for,
or that are not suited to, agricultural and ancillary activities by reason of topography, soils, and other related
characteristics.” Haw. Rev. Stat. § 205-2(d). Thus, the
Commission’s findings are simply not evidence that

31a
the land lacked economically viable uses in an agricultural classification.
Ultimately, we think that the notion underlying
Bridge’s Lucas theory is that the inability to pursue a
particular development and to obtain its value was a
total taking. This view is unsupported by the law. See
Palm Beach Isles Assocs. v. United States, 231 F.3d
1354, 1364 (Fed. Cir. 2000) (order) (“[M]ost land use
restrictions do not deny the owner of the regulated
property all economically viable uses of it.”); Hoehne v.
County of San Benito, 870 F.2d 529, 532–33 (9th Cir.
1989) (“A government entity is not required to permit
a landowner to develop property to the full extent it
may desire. Denial of the intensive development desired by a landowner does not preclude less intensive,
but still valuable development.”). Accordingly, we conclude that the State was entitled to judgment as a matter of law on Bridge’s Lucas theory, and we turn to the
Penn Central analysis.
C. Penn Central Taking
Penn Central requires that we consider: (1) “[t]he
economic impact of the regulation on the claimant,” (2)
“the extent to which the regulation has interfered with
distinct investment-backed expectations,” and (3) “the
character of the governmental action.” 438 U.S. at 124.
Our consideration of these factors aims “to determine
whether a regulatory action is functionally equivalent
to the classic taking.” Guggenheim v. City of Goleta,
638 F.3d 1111, 1120 (9th Cir. 2010) (en banc) (internal

32a
quotation marks omitted). The first and second Penn
Central factors are the primary factors. Lingle, 544
U.S. at 538–39. “The outcome [of this inquiry] . . . depends largely upon the particular circumstances [in
the] case” at hand. Palazzolo, 533 U.S. at 633 (O’Connor, J., concurring) (quoting Penn Central, 438 U.S. at
124) (internal quotation marks omitted). When we apply the Penn Central factors to the trial evidence, we
conclude that the jury could not reasonably find for
Bridge.
1. The Reversion Order’s Economic Impact
Our first consideration is the challenged regulation’s economic impact on the property owner. Lingle,
544 U.S. at 528. “[W]e ‘compare the value that has
been taken from the property with the value that remains in the property.’ ” Colony Cove Props., LLC v.
City of Carson, 888 F.3d 445, 450 (9th Cir. 2018) (quoting Keystone Bituminous Coal Ass’n v. DeBenedictis,
480 U.S. 470, 497 (1987)), cert. denied. 139 S. Ct. 917
(2019). Although there is “no litmus test,” id. at 451,
our value comparison again aims “to identify regulatory actions that are functionally equivalent to the
classic taking in which government directly appropriates private property or ousts the owners from his
domain,” Lingle, 544 U.S. at 539.
Bridge attempted to show the reversion’s economic impact by relying on Chee’s valuation testimony
and on testimony regarding the disruption to the sale

33a
agreements between Bridge and DW. We address each
in turn.
a. The Valuation Opinion
As we have explained, Chee calculated the fair
market value of the land using the day of the 2009
Voice Vote as the relevant point at which the land reverted. Chee calculated the land’s value as $40 million
on the day before the vote and as $6.36 million on the
day of the vote. The parties agree, uncritically, that
Chee’s opinion shows that the land suffered an 83.4%
diminution in fair market value. On this account, the
reversion would have resulted in a loss of $33.6 million
in the land’s value. We conclude, however, that, as a
matter of law, Chee’s calculation suffers from a number
of defects for the purposes of Bridge’s taking claim.
First, Chee’s valuation opinion did not properly
ascertain economic impact for the purposes of Bridge’s
taking claim because it assumed that the April 30,
2009 Voice Vote reverted the land.11 We have already
explained that it is not proper to measure economic
impact based on a “hypothetical economic result” that
11

We observe that it appears that Chee’s calculation of the
land’s value prior to voice vote failed to account for Bridge’s November 2010 deadline to complete the 385 affordable housing
units. Chee calculated the land’s urban value as $40 million based
on the “highest and best use” of “ ‘land banking’ the property until
overall market conditions improved,” specifically waiting to gauge
“the full fallout of the Great Recession.” Thus, Chee’s highest
and best use valuation of the land in its urban classification also
appears to have inflated the land’s value.

34a
assumes a state of affairs that did not exist. See MHC
Fin. Ltd. P’ship v. City of San Rafael, 714 F.3d 1118,
1127 (9th Cir. 2013) (rejecting the district court’s comparison of the effect of a 1999 rent control ordinance
with a “hypothetical economic result assuming that
there was no rent control ordinance in effect at all”).
The reversion did not occur until some two years after
the 2009 Voice Vote and thus the vote could not be the
proper reference point.
Second, the vote’s effect on the land’s fair market
value during the ongoing OSC proceedings is not evidence of a taking. We understand that Bridge could
account for what it contends cast a “dark cloud” over
the project by using the vote as the reference point
for its valuation calculation. Nevertheless, “[m]ere
fluctuations in value during the process of governmental decisionmaking, absent extraordinary delay, are
incidents of ownership. They cannot be considered as a
taking in the constitutional sense.” Tahoe-Sierra, 535
U.S. at 332 (quoting Agins v. City of Tiburon, 447 U.S.
255, 263 n.9 (1980)); First English, 482 U.S. at 320
(same). Chee’s valuation evidence falters for this reason as well.
Third, even if we assume that Chee properly calculated the land’s value, the asserted 83.4% diminution in value substantially overstates the relevant
diminution in value Bridge could have suffered for the
purposes of weighing this factor. See MHC Fin., 714
F.3d at 1127 (taking issue with valuation evidence
based on a hypothetical state of affairs but nevertheless assuming it could show economic impact). “[T]he

35a
duration of the restriction is one of the important factors that a court must consider in the appraisal of a
regulatory takings claim.” Tahoe-Sierra, 535 U.S. at
342. When we account for the reversion’s temporary
duration, the resulting relevant diminution is much
smaller than 83.4%.
We observe that, consistent with the nature of its
temporary taking claim, Bridge did not attempt to pursue at trial damages that would reflect the full 83.4%
diminution it asserted.12 Instead, Bridge sought damages by taking (1) the diminution in the land’s value
attributed to the government action, (2) multiplied by
the time period of the temporary taking, and (3) further multiplied by Bridge’s rate of return. Using an
overstated taking period from the date of the 2009
Voice Vote to the Hawaii Supreme Court’s November
2014 decision, Bridge asserted that the relevant time
period for its damages was 5.68 years. Seeking to apply
a 10.12% rate of return to the $40 million valuation,

12

In a temporary regulatory taking case, just compensation
damages are modified because “the landowner’s loss takes the
form of an injury to the property’s potential for producing income
or an expected profit,” not the loss of the property itself. Wheeler
v. City of Pleasant Grove, 833 F.2d 267, 271 (11th Cir. 1987). In
these circumstances, “[t]he landowner’s compensable interest . . .
is the return on the portion of fair market value that is lost as a
result of the regulatory restriction. Accordingly, the landowner
should be awarded the market rate return computed over the period of the temporary taking on the difference between the property’s fair market value without the regulatory restriction and its
fair market value with the restriction.” Id. (citing Nemmers v.
City of Dubuque, 764 F.2d 502, 505 (8th Cir. 1985)).

36a
Bridge claimed damages of $19.54 million. That is a
roughly 48% diminution in value.
More critically, Bridge’s claimed damages still
overstate the relevant diminution in value for the purposes of this factor. The reversion lasted roughly a year,
from the Reversion Order’s issuance in April 2011 until the Hawaii state circuit court’s judgment vacating
the order in June 2012.13 See DW Aina Le‘a Dev., 339
P.3d at 704. When we account for the reversion’s actual
one-year duration, Bridge’s damages are at most $6.72
million if we use the higher 20% rate of return that
Bridge hoped to receive on its total investment (an issue we discuss in further detail below). Bridge’s loss
thus amounts to an approximately 16.8% diminution
in value, a number far lower than the 83.4% figure on
which it relied at trial. This economic impact weighs
against the conclusion that the reversion constituted
a taking. See Colony Cove Props., 888 F.3d at 451 (concluding that a 24.8% diminution was “far too small to
establish a regulatory taking”); Laurel Park Cmty.,
LLC v. City of Tumwater, 698 F.3d 1180, 1189 (9th Cir.
2012) (finding that a “less than 15%” economic loss
with respect to one property and no effect on two other
properties “does not support a takings claim”).

13

Bridge treats the Hawaii Supreme Court’s decision as the
decision that invalidated the Reversion Order. We know of no
principle of Hawaii law that would render ineffective the Hawaii
circuit court’s judgment vacating the Reversion Order. The general rule is that “an appeal does not vacate the judgment appealed
from.” Solarana v. Indus. Elecs., Inc., 428 P.2d 411, 417 (Haw.
1967). Thus, the circuit court’s judgment is the relevant end point.

37a
For these reasons, we conclude that the valuation
evidence, properly understood, weighs strongly against
a taking pursuant to the first Penn Central factor.
b. The Disrupted Sale Agreements
Bridge also relied on the disruption of the land
sale agreements between it and DW to show economic
impact. John Baldwin, the CEO of Bridge Capital and
Bridge’s parent company as well as Bridge’s manager,
testified that DW failed to purchase the remaining
1,000 acres for the $35.7 million price stated in the
February 2009 sale agreement because of the vote.
Apparently, the vote affected DW’s ability to borrow
money to finance the purchase. Baldwin further testified that DW failed to make any more payments to
Bridge pursuant to the modified December 2009 agreement—which retained the same $35.7 million price for
the remaining 1,000 acres—after the OSC’s reinstatement.
There is a fundamental problem with using the
claimed disruptions to the February 2009 and December 2009 sale agreements as evidence of the Reversion
Order’s economic impact. DW’s contractual default under the February 2009 agreement after the 2009 Voice
Vote occurred some two years before the 2011 Reversion Order. DW’s default under the modified December
2009 agreement also occurred after the OSC’s reinstatement in July 2010, several months before the
Reversion Order’s issuance. The Reversion Order thus
could not have caused the contractual defaults that

38a
pre-dated it by several months. See Esplanade Props.,
307 F.3d at 984 (citing Tahoe-Sierra, 216 F.3d at 783 &
n.33) (recognizing that a regulatory taking plaintiff
must establish both causation-in-fact and proximate
causation). Moreover, the record otherwise shows that
Bridge’s focus on the disruptions to these agreements
overstated the reversion’s impact on its contractual relationship with DW. After the Hawaii Supreme Court’s
decision, DW agreed to pay Bridge $14 million more
than the previously agreed upon $40.7 million to purchase the land. Thus, the contractual defaults during
the reversion’s temporary duration do not affect our
economic impact analysis.
2. The Extent of Any Interference with
Any Reasonable Investment-Backed
Expectations
We must consider next “the extent to which the
regulation has interfered with distinct investmentbacked expectations,” Penn Central, 438 U.S. at 124,
that Bridge had for the 1,060 acres at the time of its
acquisition, see Colony Cove Props., 888 F.3d at 452;
Laurel Park Cmty., 698 F.3d at 1189. Although this
factor raises “vexing subsidiary questions” about its
proper scope and application, Lingle, 544 U.S. at 539,
certain principles guide us.
For one, we must “use ‘an objective analysis to
determine the reasonable investment-backed expectations of the [o]wners.’ ” Colony Cove Props., 888 F.3d at
452 (quoting Chancellor Manor v. United States, 331

39a
F.3d 891, 907 (Fed. Cir. 2003)). Our focus is on interference with reasonable expectations. See Concrete Pipe
& Prods. v. Construction Laborers Pension Trust for
Southern California, 508 U.S. 602, 646; Ruckelshaus
v. Monsanto Co., 467 U.S. 986, 1005 (1984). “ ‘Distinct
investment-backed expectations’ implies reasonable
probability, . . . not starry eyed hope of winning the
jackpot if the law changes.” Guggenheim, 638 F.3d at
1120 (quoting Penn Central, 438 U.S. at 124). Thus,
“unilateral expectation[s]” or “abstract need[s]” cannot
form the basis of a claim that the government has
interfered with property rights. Ruckelshaus, 467 U.S.
at 1005 (citation omitted).
Second, “what is ‘relevant and important in judging reasonable expectations’ is ‘the regulatory environment at the time of the acquisition of the property.’ ”
Love Terminal Partners, L.P. v. United States, 889 F.3d
1331, 1345 (Fed. Cir. 2018) (quoting Commonwealth
Edison Co. v. United States, 271 F.3d 1327, 1350 n.23
(Fed. Cir. 2001) (en banc)). “[T]hose who do business
in the regulated field cannot object if the legislative
scheme is buttressed by subsequent amendments to
achieve the legislative end[.]” Concrete Pipe & Prods.,
508 U.S. at 645 (quoting FHA v. The Darlington, Inc.,
358 U.S. 84, 91 (1958)).
With these principles in mind, we must determine
what reasonable investment-backed expectations Bridge
had and to what degree the Reversion Order interfered
with them.

40a
The record shows that Baldwin testified that
Bridge hoped to make annually at least 20% from “the
total investment,” meaning every dollar put into the
property.14 Even if this hoped-for return was reasonable, the reversion could not have meaningfully interfered with it during the reversion’s one-year duration.
Bridge did not expect any profit from its purchase of
the property unless and until the Commission
amended the 1991 Order’s affordable housing condition. Bridge also did not expect that an amendment to
the affordable housing condition would translate into
immediate profits. Indeed, Bridge represented to the
Commission that $86 million in initial infrastructure
costs and over $200 million in total development costs
had to be spent before the construction and sale of any
housing units could begin. At the time of the reversion,
the project was nowhere near this level of investment—indeed only sixteen affordable housing units
existed—and thus Bridge could have had no reasonable expectation of making the 20% annual return on
the total investment at that time.
The State and Bridge largely focus on whether
Bridge could have reasonably expected that the Commission would amend the 1991 Order’s affordable
housing condition requiring the construction of 1,000
14

The district court denied the State’s JMOL motion in part
by relying on evidence that Bridge anticipated receiving a 20%
return on its initial investment. On appeal, Bridge passingly refers to this in the factual background of its answering brief to
the State’s cross-appeal and does not argue it in its Penn Central
analysis. Nevertheless, we address it here.

41a
affordable housing units.15 Pointing to our distinction
in Guggenheim, 638 F.3d at 1120–21, between reasonable expectations and speculative possibilities, both
sides find support for the (un)reasonableness of
Bridge’s expectation in the $5.2 million that Bridge
paid for the 1,060 acres. We will assume that Bridge
reasonably expected an amendment to the 1991 Order’s affordable housing condition, but we do not see
what it proves. The Commission did not predicate the
Reversion Order on a purported failure to build the
1,000 affordable housing units that the 1991 Order
required prior to amendment, but instead on the reclassification conditions that Bridge conspicuously
ignores.
Bridge further argues that the jury was entitled
to find that Bridge had a reasonable expectation that
the Commission would not revert the land to its prior
zoning for agricultural use once Bridge purchased
the property, obtained the amendment, and substantially commenced use of the land. The substantial commencement of use point stems from the Hawaii
Supreme Court’s determination that DW’s active preparations for the land and completion of sixteen affordable housing units by March 2010 was substantial
commencement of use. But again, we do not see what
this proves. Substantial commencement of use did
15

The propriety of the Commission’s affordable housing conditions is not at issue in this case. As Bridge avers on appeal, “the
‘challenged regulation’ giving rise to Bridge’s takings claim is not
the affordable housing condition in effect when Bridge purchased
the Property.”

42a
not eliminate the possibility of reversion; it simply
changed the circumstances pursuant to which the
Commission could exercise its reversion authority. See
DW Aina Le‘a Dev., 339 P.3d at 714.
What we find dispositive are the conditions of the
1989 and 1991 Orders requiring the landowner to substantially comply with representations made to obtain
reclassification. The 1991 Order made clear that the
Commission might issue an OSC why the land should
not revert for failure to substantially comply with representations made to obtain reclassification. Hawaii
law expressly authorized the Commission to impose
this condition, and such conditions ran with title to the
land. Haw. Rev. Stat. § 205-4(g). Critically, the substantial compliance condition turned on the landowner’s
own representations to the Commission.
Bridge expressly committed to build 385 affordable
housing units as a part of the amendment to the order
governing the land’s conditional urban use classification. Based on Bridge’s representations to the Commission, the 2005 Order required Bridge to build these
units by November 2010. At no point in arguments
before us does Bridge acknowledge this deadline, let
alone Bridge’s and DW’s repeated representations to
the Commission as part of seeking the OSC’s rescission
that they would complete the 385 affordable housing
units.
The operative conditions in place at the time of
the OSC and the Reversion Order, and Bridge’s failure
to meet them, dispel the notion that Bridge could

43a
reasonably expect that the Commission would not enforce the conditions. See MHC Fin., 714 F.3d at 1127–
28 (finding that plaintiff could not satisfy this factor in
the context of challenging a 1999 rent control ordinance because the plaintiff “had even less reason to
expect that the rent control regime would disappear
altogether” given a prior 1993 rent control ordinance
in effect when plaintiff bought its property). The Commission properly issued the OSC based on the suspicion that Bridge would not meet the conditions. See
DW Aina Le‘a, Dev., 339 P.3d at 713 (“The [Commission] did not err in issuing the OSC. Bridge and DW do
not contend otherwise.” (citation omitted)). And, in fact,
Bridge did not complete the 385 affordable housing
units by the deadline to do so, which lapsed several
months before the Reversion Order’s issuance. Thus,
we do not see how the Reversion Order interfered with
any reasonable expectations that Bridge could have
formed regarding enforcement or reversion. Accordingly, we conclude that, as a matter of law, this factor
weighs strongly against finding a taking.
3. The Character of the Government’s
Action
Finally, we consider the Reversion Order’s character. “[T]he character of the governmental action—for
instance whether it amounts to a physical invasion or
instead merely affects property interests through some
public program adjusting the benefits and burdens of
economic life to promote the common good—may be
relevant in discerning whether a taking has occurred.”

44a
Lingle, 544 U.S. at 539 (internal quotation marks omitted). The government generally cannot “forc[e] some
people alone to bear public burdens which, in all fairness and justice, should be borne by the public as a
whole.” Id. at 537 (quoting Armstrong v. United States,
364 U.S. 40, 49 (1960)). Even if this factor weighs in
favor of finding a taking, this factor is not alone a sufficient basis to find that a taking occurred. See Laurel
Park Cmty., 698 F.3d at 1191.
The district court concluded that Bridge’s evidence
provided the jury with an ample basis to find for Bridge
on this factor. The court reasoned that the Reversion
Order’s effect was concentrated because it directly affected the owners of the 1,060 acres. The court also
reasoned that credible testimony showed that the
Commission intended to cause Bridge to sell the property. In addition, the court observed that the “decision
to revert the Property’s classification was the first
time in the [Commission’s] 50-year history that it had
taken such action,” and that the Hawaii Supreme
Court ultimately invalidated the reversion. Much of
this evidence was insufficient to establish that this
factor weighed in Bridge’s favor.
For one, we recognize that government action that
singles out a landowner from similarly situated landowners raises the specter of a taking. See Lingle, 544
U.S. at 542–44. The concentrated effect of the reversion
here, however, was reflective of the confines of a generally applicable Hawaii law land use reclassification
procedure. See Haw. Rev. Stat. § 205-4(a) (permitting a
landowner to petition). We cannot find in this generally

45a
applicable scheme that this factor weighed in Bridge’s
favor.
Second, the Hawaii Supreme Court’s invalidation
of the reversion as a matter of Hawaii statutory procedural requirements does not carry the constitutional
significance that either Bridge or the district court ascribed to it. The reclassification history is critical to the
reversion challenged here. See Buckles v. King County,
191 F.3d 1127, 1139 (9th Cir. 1999) (observing that a
taking claim must be considered “ ‘in light of the context and . . . history’ of the land use decisions related
to [the] property.” (ellipsis in original) (quoting City of
Monterey v. Del Monte Dunes at Monterey, Ltd., 526
U.S. 687, 721 (1999))).
As the Hawaii Supreme Court observed when it
rejected Bridge’s assertion that the Commission violated Bridge’s substantive due process rights, the “reversion was not ‘clearly arbitrary and unreasonable,’
given the project’s long history, the various representations made to the [Commission], and the petitioners’
failure to meet deadlines.” DW Aina Le‘a Dev., 339 P.3d
at 689, 717. The court otherwise acknowledged that,
despite their repeated assurances to the Commission
that they would complete the 385 affordable housing
units by November 2010, “Bridge and DW did not satisfy the affordable housing condition, and did not
comply with numerous other representations made to
the [Commission].” Id. at 717. The Hawaii Supreme
Court’s rejection of Bridge’s equal protection challenge
echoed this reasoning. Id. at 718. The same underlying

46a
history blunts the force of Bridge’s assertion that the
reversion’s character established a taking.
4. The Balance of the Penn Central
Factors
Although we construe the evidence in the light
most favorable to the jury’s verdict, we conclude that
no reasonable jury could find that Bridge’s evidence
satisfied the Penn Central test. Even if we assume
that the character of the government’s action weighs
in favor of finding a taking, the first and second factors
weigh decisively against such a finding. Because
Bridge’s own evidence established a diminution in
value that is proportionately too small and because
the reversion did not interfere with Bridge’s reasonable investment-backed expectations for the land, no
reasonable jury could conclude that the reversion effected a taking pursuant to the Penn Central analysis.
D. The Outcome of the Taking Liability
Analysis
Our analysis of Bridge’s taking theories requires
us to reverse the district court’s denial of the State’s
renewed JMOL motion. Bridge’s evidence could not establish that a taking occurred pursuant to either Lucas
or Penn Central. Thus, the district court should have
granted the State’s motion. We vacate the judgment
for Bridge and the nominal damages award and remand with instructions for the district court to enter
judgment for the State. As a consequence of this

47a
determination, we need not address any other taking
issues the parties raise on appeal.
II.

The Dismissal of Bridge’s Equal Protection
Claim

Next, we must determine whether the Hawaii
Supreme Court’s decision in Bridge’s agency appeal
barred Bridge’s equal protection claim in this case.
Hawaii law governs whether we afford preclusive effect to the Hawaii Supreme Court’s decision. See Hiser
v. Franklin, 94 F.3d 1287, 1290 (9th Cir. 1996) (“[A]
federal court must give to a state-court judgment the
same preclusive effect as would be given that judgment
under the law of the state in which the judgment was
rendered.” (quoting Migra v. Warren City Sch. Dist. Bd.
of Educ. 465 U.S. 75, 81 (1984))). Thus, if Hawaii law
precludes Bridge from litigating the equal protection
claim in state court, then Bridge cannot pursue the
same claim here. Caldeira v. County of Kauai, 866 F.2d
1175, 1178 (9th Cir. 1989).
Pursuant to Hawaii law, the “judgment of a court
of competent jurisdiction is a bar to a new action in
another court between the same parties or their privies concerning the same subject matter.” Santos v.
State Dep’t of Transp., 646 P.2d 962, 965 (Haw. 1982)
(per curiam). A judgment has preclusive effect pursuant to the doctrine of issue preclusion if four requirements are met:
(1) the issue decided in the prior adjudication
is identical to the one presented in the action

48a
in question; (2) there is a final judgment on
the merits; (3) the issue decided in the prior
adjudication was essential to the final judgment; and (4) the party against whom [issue
preclusion] is asserted was a party or in privity with a party to the prior adjudication.
Bremer v. Weeks, 85 P.3d 150, 161 (Haw. 2004) (alteration in original); see also Dorrance v. Lee, 976 P.2d 904,
909 (Haw. 1999).
The district court determined that all requirements were met. Bridge disputes the first and second
requirements and further argues that it did not have a
full and fair opportunity to litigate its equal protection
challenge in the agency appeal. We reject each argument in turn.
A. Identical Issues
We can find no material difference between the
equal protection issue Bridge raised in the agency appeal and the one raised in this suit. In the agency appeal, Bridge asserted that the Commission violated
its equal protection rights because the Commission did
not treat other developers the same way it treated
Bridge. In its complaint here, Bridge alleged that the
Commission lacked a rational basis to treat Bridge
differently than it treated other developers. These are
undoubtedly the same issue. Bridge’s further contention that the Hawaii Supreme Court decided only
whether the Commission had a rational basis to enforce the reclassification conditions ignores that the

49a
court determined that any differential treatment did
not lack a rational basis. See DW Aina Le‘a Dev., 339
P.3d at 717–18.
Furthermore, we disagree with Bridge that Hawaii
law requires the availability of identical remedies in
both proceedings for an earlier judgment to have preclusive effect. In Citizens for the Protection of the North
Kohala Coastline v. County of Hawai‘i, 979 P.2d 1120
(Haw. 1999), the Hawaii Supreme Court decided that
issue preclusion did not bar the suit there because
different standards governed the issue of standing
to challenge an agency action pursuant to different
Hawaii statutory provisions. See Tax Found. of Haw. v.
State, 439 P.3d 127, 149 (Haw. 2019) (“[I]n Citizens, we
pointed out the difference between standing requirements for HRS § 91-14 agency appeals and HRS
§ 632-1 declaratory judgment actions[.]”). The court
observed that the statutory provisions provided different forms of relief to bolster the conclusion that
issue preclusion did not bar the later suit, not to fashion a new identical remedies requirement for Hawaii
issue preclusion law. See Citizens for the Protection of
the North Kohala Coastline, 979 P.2d at 1128 (citing
Pele Def. Fund v. Puna Geothermal Venture, 881 P.2d
1210, 1216 n.13 (Haw. 1994) (further explaining that
in a § 91-14 agency appeal, “the court only has power
to grant relief in accordance with HRS 91-14(g)”)).
Thus, we reject Bridge’s challenge to the identical issue
requirement.

50a
B. Final Judgment on the Merits
We also reject Bridge’s contention that the Hawaii
Supreme Court’s decision was not a final judgment on
the merits. Insofar as the decision concerned Bridge’s
federal equal protection rights, the decision became
final when the time expired for Bridge to seek review
by the United States Supreme Court. See E. Sav. Bank,
FSB v. Esteban, 296 P.3d 1062, 1068 (Haw. 2013); see
also 28 U.S.C. § 2101 (setting 90-day time period
within which to file a writ of certiorari with the United
States Supreme Court). We are not aware of Bridge
ever pursuing any such appeal.
Contrary to Bridge’s view, the Hawaii Supreme
Court’s remand for further proceedings consistent with
its opinion does not render the judgment nonfinal. The
Hawaii Supreme Court expressly vacated the circuit
court’s judgment on the issue of equal protection, and
remanded for the circuit court to effectuate that vacatur. That remand could not have resulted in a different
resolution of Bridge’s equal protection challenge because no issue of law or fact regarding that challenge
remained unresolved. See Robinson v. Ariyoshi, 658
P.2d 287, 297 (Haw. 1982). Moreover, Bridge has never
identified any further agency appeal proceedings in
the more than five years since the Hawaii Supreme
Court’s judgment. Thus, the court’s decision was a final
judgment on the merits.

51a
C. Full and Fair Opportunity to Litigate
As a final matter, we consider whether Bridge
lacked a full and fair opportunity to litigate its equal
protection challenge in the agency appeal. Federal
courts will not afford preclusive effect to a prior state
court judgment if the party lacked a full and fair opportunity to litigate the issue on the merits. See Allen
v. McCurry, 449 U.S. 90, 101 (1980); Ross v. Alaska, 189
F.3d 1107, 1112–13 (9th Cir. 1999).16 “[N]o single
model of procedural fairness, let alone a particular
form of procedure, is dictated by the Due Process
Clause.” Kremer v. Chem. Constr. Corp., 456 U.S. 461,
483 (1982). Instead, “ ‘state proceedings need do no
more than satisfy the minimum procedural requirements of the Fourteenth Amendment’s Due Process
Clause in order to qualify for the full faith and credit
guaranteed by federal law.’ ” Ross, 189 F.3d at 1112
(quoting Kremer, 456 U.S. at 481). The proceedings at
issue here met that standard.
Bridge contends that it lacked a full and fair opportunity to litigate its equal protection challenge in
the agency appeal because the Hawaii Supreme Court
excluded from the evidence the dockets from the Commission’s proceedings involving other property owners
on which Bridge sought to rely to show differential
treatment. DW Aina Le‘a Dev., 339 P.3d at 689, 714–15.
16

This parallels a requirement of Hawaii issue preclusion
law, pursuant to which the plaintiff must have had a full and fair
opportunity to litigate the relevant issue on the merits in the
earlier case. Dorrance, 976 P.2d at 911; Foytik v. Chandler, 966
P.2d 619, 627 (Haw. 1998).

52a
Bridge did not lack the opportunity to present this evidence, but instead failed to properly introduce this evidence into the agency appeal record. Id. at 715 & n.18
(finding that Bridge and DW failed to request judicial
notice). Bridge’s failure to do so does not undermine
the judgment’s fairness. See Kremer, 456 U.S. at 483,
485 (having “little doubt” that the state’s procedures
were constitutionality sufficient and concluding that
the plaintiff ’s “fail[ure] to avail himself of the full procedures provided by state law does not constitute a
sign of their inadequacy”).
It is otherwise clear that Bridge received a full and
fair opportunity to raise the equal protection challenge
in the agency appeal. Bridge raised, briefed, and argued the challenge during the proceedings before the
Commission and on appeal before the circuit court and
defended the issue before the Hawaii Supreme Court.
See DW Aina Le‘a Dev., 339 P.3d at 689, 704–06, 717–
18. Bridge thus received a full and fair opportunity
pursuant to both Hawaii law and the federal exception
to issue preclusion. See Ross, 189 F.3d at 1112–13 (finding that the plaintiff received a full and fair opportunity to litigate an issue in a prior Alaska state court
proceeding when the plaintiff was able to raise as well
as fully brief and argue the issue); Dorrance, 976 P.2d
at 911 (making a similar finding under Hawaii law).
We therefore affirm the district court’s issue preclusion
ruling that bars Bridge from re-litigating the equal
protection issue in this case.
With no remaining viable claims, it is unnecessary
for us to address Bridge’s appeal from the district

53a
court’s dismissal of the individual capacity claims
Bridge raised against the commissioners who voted
to revert. Trans-Canada Enters., Ltd. v. Muckleshoot
Indian Tribe, 634 F.2d 474, 476 n.2 (9th Cir. 1980) (declining to address judicial immunity “[i]n view of our
holding that no claim for federal relief ” existed).
CONCLUSION
The district court erred in denying the State’s
JMOL motion because Bridge’s evidence did not establish a taking pursuant to either Lucas or Penn Central,
and we reverse the denial. Consequently, we vacate the
judgment for Bridge on the taking claims and remand
with instructions for the district court to enter judgment for the State. We affirm the dismissal of Bridge’s
equal protection claim. We decline to address all other
issues raised on appeal as unnecessary.
AFFIRMED IN PART, REVERSED AND VACATED IN PART, and REMANDED with instructions
to enter judgment for Defendants-Appellees/CrossAppellants. Costs are awarded to Defendants-Appellees/
Cross-Appellants.

54a
APPENDIX B
AO 450 (Rev. 5/85) Judgment in a Civil Case
===========================================================================================
UNITED STATES DISTRICT COURT
——————— DISTRICT OF HAWAII ——————
Bridge Aina Le’a, LLC
Plaintiff(s),
V.
Hawaii, State of , Land
Use Commission et al
Defendant(s).

AMENDED JUDGMENT
IN A CIVIL CASE
Case: CV 11-00414SOM-KJM
FILED IN THE
UNITED STATES
DISTRICT COURT
DISTRICT OF HAWAII
March 30, 2018
At 12 o’clock and
17 min p.m.
SUE BEITIA, CLERK

[🗸] Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
[ ] Decision by Court. This action came to trial before the Court. The issues have been tried and a
decision has been rendered.
IT IS HEREBY ORDERED and ADJUDGED
that Plaintiff is awarded $1 in nominal damages
with respect to the takings claims in Count I and
II AGAINST Defendants Land Use Commission

55a
and the Individual Defendants in their Official
Capacities.
March 30, 2018
Date

SUE BEITIA
Clerk
/s/ Sue Beitia by CB
(By) Deputy Clerk

56a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
)
BRIDGE AINA LE‘A, LLC,
)
Plaintiff,
)
vs.
)
STATE OF HAWAII LAND
)
USE COMMISSION; VLADI- )
MIR P. DEVENS, in his indi- )
vidual and official capacity;
)
KYLE CHOCK, in his individ- )
ual and official capacity;
)
THOMAS CONTRADES,
)
in his individual and official )
capacity; LISA M. JUDGE,
)
in her individual and official )
capacity; NORMAND R. LEZY, )
in his individual and official )
capacity; NICHOLAS W.
)
TEVES, JR., in his individual )
and official capacity; RONALD )
I. HELLER, in his individual )
and official capacity; DUANE )
KANUHA, in his official ca- )
pacity; CHARLES JENCKS, )
in his official capacity; JOHN )
DOES 1-10; JANE DOES 1-10; )
DOE PARTNERSHIPS 1-10; )
DOE CORPORATIONS 1-10; )
DOE ENTITIES 2-10; and
)
DOE GOVERNMENTAL
)
UNITS 1-10,
)
)
Defendants.

Civ. No. 11-00414
SOM-KJM
ORDER DENYING
STATE OF
HAWAII’S
RENEWED
MOTION FOR
JUDGMENT AS A
MATTER OF LAW
OR, IN THE
ALTERNATIVE,
FOR A NEW TRIAL

57a
ORDER DENYING STATE OF HAWAII’S
RENEWED MOTION FOR JUDGMENT
AS A MATTER OF LAW OR, IN THE
ALTERNATIVE, FOR A NEW TRIAL
(Filed Jun. 27, 2018)
I.

INTRODUCTION.

Defendant State of Hawaii Land Use Commission
(the “State” or “Land Use Commission”) has renewed
its request for judgment as a matter of law, alternatively requesting a new trial. For the reasons that follow, the court denies these requests.
II.

BACKGROUND.

The factual background of this case has been discussed in the court’s previous orders and is incorporated by reference. See, e.g., ECF No. 131; ECF No. 283;
ECF No. 318.
On March 19, 2018, at the close of Bridge Aina
Le‘a’s case-in-chief, the State moved for judgment as a
matter of law. ECF No. 361. On March 20, 2018, the
court orally granted the motion in part, agreeing to
limit any recovery by Bridge Aina Le‘a to nominal
damages given court rulings excluding proffered evidence on just compensation. See ECF No. 365. The
court denied the motion in all other respects. See id.
Ultimately, the jury found that the State had taken
Bridge Aina Le‘a’s property without just compensation
under both Lucas and Penn Central analyses. See ECF
No. 373. The court entered judgment awarding

58a
nominal damages to Bridge Aina Le‘a on March 30,
2018. ECF No. 377.
On April 20, 2018, the State filed a Renewed Motion for Judgment as a Matter of Law or, in the Alternative, for a New Trial (“Renewed Motion”). ECF No.
385. The State claims it is entitled to judgment as a
matter of law on four grounds: (1) the Land Use Commission’s reversion order did not affect Bridge Aina
Le‘a’s limited property interests; (2) there cannot be a
taking stemming from an erroneous finding of fact by
an agency in a quasi-judicial proceeding; (3) the evidence does not establish a Lucas taking as a matter of
law; and (4) the evidence does not establish a Penn
Central taking as a matter of law. See id. at PageID #s
9293-9313. In the alternative, the State requests a new
trial on two grounds: (1) the court’s jury instruction
concerning the appropriate denominator was erroneous; and (2) the verdict is against the great weight of
the evidence. See id. at PageID #s 9213-16. Bridge Aina
Le‘a filed a Memorandum in Opposition on May 18,
2018, ECF No. 401, and the State filed a Reply on June
1, 2018, ECF No. 403.
III. LEGAL STANDARD.
A. Rule 50(b) (Renewed Motion for Judgment as a Matter of Law).
If a portion of party’s motion for judgment as a
matter of law is not granted by the court, then, “[n]o
later than 28 days after the entry of judgment, . . . the
movant may file a renewed motion for judgment as a

59a
matter of law.” Fed. R. Civ. P. 50(b). “Because it is a renewed motion, a proper post-verdict Rule 50(b) motion
is limited to the grounds asserted in the pre-deliberation [ ] motion.” EEOC v. Go Daddy Software, Inc., 581
F.3d 951, 961 (9th Cir. 2009); Freund v. Nycomed Amersham, 347 F.3d 752, 761 (9th Cir. 2003).
The standard for granting judgment as a matter
of law under Rule 50 “mirrors” the standard for granting summary judgment. Reeves v. Sanderson Plumbing
Prods., Inc., 530 U.S. 133, 150 (2000) (quoting Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 250-51 (1986)). “A
district court can grant a Rule 50[ ] motion for judgment as a matter of law only if ‘there is no legally sufficient basis for a reasonable jury to find for that party
on that issue.’ ” Krechman v. Cty. of Riverside, 723 F.3d
1104, 1109 (9th Cir. 2013) (quoting Jorgensen v. Cassiday, 320 F.3d 906, 917 (9th Cir. 2003)). The moving
party must show that the evidence, construed in the
light most favorable to the nonmoving party, permitted
only one reasonable conclusion, and that conclusion is
contrary to jury’s verdict. See Pavao v. Pagay, 307 F.3d
915, 918 (9th Cir. 2002); Enovsys LLC v. AT&T Mobility
LLC, No. CV 11-5210 SS, 2015 WL 11089498, at *4 n.5
(C.D. Cal. Nov. 16, 2015) (explaining that “the moving
party bears th[is] burden” even when the non-movant
“had the burden [of proof ] at trial” (citing Anderson,
477 U.S. at 250)).
The court may not assess the credibility of witnesses and must draw all reasonable inferences in the
nonmovant’s favor. See Krechman, 723 F.3d at 1110.
The court’s “job at this stage is not to determine

60a
whether the jury believed the right people, but only to
assure that it was presented with a legally sufficient
basis to support the verdict.” Berry v. Hawaii Exp.
Serv., Inc., No. 03-00385 SOM/LEK, 2006 WL 1519996,
at *2 (D. Haw. May 24, 2006) (quoting Harvey v. Office
of Banks & Real Estate, 377 F.3d 698, 707 (7th Cir.
2004)).
B. Rule 59(a) (Motion for a New Trial).
Rule 59(a) of the Federal Rules of Civil Procedure
provides that a court may grant a new trial “for any
reason for which a new trial has heretofore been
granted in an action at law in federal court.” Fed. R.
Civ. P. 59(a)(1)(A). The court is “bound by those grounds
that have been historically recognized.” Zhang v. Am.
Gem Seafoods, Inc., 339 F.3d 1020, 1035 (9th Cir. 2003).
Precedential grounds for a new trial include a verdict
that “is contrary to the clear weight of the evidence, is
based upon false or perjurious evidence, or [implicates]
a miscarriage of justice.” Molski v. M.J. Cable, Inc., 481
F.3d 724, 729 (9th Cir. 2007) (quoting Passantino v.
Johnson & Johnson Consumer Prods., Inc., 212 F.3d
493, 510 n.15 (9th Cir. 2000)). In ruling on a motion for
a new trial, “[t]he judge can weigh the evidence and
assess the credibility of witnesses, and need not view
the evidence from the perspective most favorable to the
prevailing party.” Landes Const. Co., Inc. v. Royal Bank
of Canada, 833 F.2d 1365, 1371 (9th Cir. 1987) (quoting
Air-Sea Forwarders, Inc. v. Air Asia Co., 880 F.2d 176,
190 (9th Cir. 1989)). A new trial can be granted due to
an erroneous evidentiary ruling only if the ruling

61a
“substantially prejudiced” the complaining party.
Ruvalcaba v. City of Los Angeles, 64 F.3d 1323, 1328
(9th Cir. 1995).
IV. ANALYSIS.
A. The State Is Not Entitled to Judgment
as a Matter of Law.
The State is not entitled to judgment as a matter
of law on any of the grounds put forward in its Renewed Motion.
1. The State Has Not Identified Evidence Indicating that Bridge Aina
Le‘a Possessed Only a Token Property Interest Unaffected by the Reversion.
The Ninth Circuit uses “a two-step analysis to determine whether a ‘taking’ has occurred: first, we determine whether the subject matter is ‘property’
within the meaning of the Fifth Amendment and, second, we establish whether there has been a taking
of that property, for which compensation is due.”
Engquist v. Oregon Dep’t of Agric., 478 F.3d 985, 1002
(9th Cir. 2007). This analysis begins with the factual
question of what property rights, if any, a plaintiff
owns. See Philips v. Marion Cty. Sheriff ’s Office, 494
Fed. App’x 797, 799 (9th Cir. 2012). On this antecedent
issue, the court instructed the jury as follows:

62a
The first step in deciding whether Bridge Aina
Le‘a’s property has been taken is to determine
what property rights Bridge Aina Le‘a owns.
Think of property rights as a bundle of sticks.
One stick represents, for example, the right to
possess land. One stick represents the right to
use the land. One stick represents the right to
sell one’s interest in the land. One stick represents the right to develop the land, and so on.
A person may possess one stick, but not the
whole bundle. Your job is to determine what
sticks Bridge Aina Le‘a owns.
I instruct you that Bridge Aina Le‘a owns the
right of title to the land in issue. You may consider whether Bridge Aina Le‘a owns any
other rights.
Once you have determined what rights Bridge
Aina Le‘a owns, you must consider whether
those rights have been taken. In making your
determination, you must consider only Bridge
Aina Le‘a’s interests in the property. You may
not base your decision on a determination
that the Land Use Commission’s action affected a third party’s property interests, except insofar as the impact on the third party’s
interests also materially affected Bridge Aina
Le‘a’s interests in the property.
ECF No. 372, PageID #s 7453-54. This instruction was
given with the agreement of the parties.
According to the State, the evidence presented at
trial is susceptible to only one reasonable conclusion:
that Bridge Aina Le‘a’s property interests were so

63a
“limited” that they could “not [have been] affected by
the reversion” of the 1,060-acre property from urban
use to agricultural use. ECF No. 385-1, PageID # 9293.
In making this argument, the State notes that Bridge
Aina Le‘a “sold the 1,060 acres and its development
rights to [separate] entities owned by Robert Wessel[s]
prior to the reversion of the property in 2011.” Id. at
PageID # 9294 (citation omitted). If Bridge Aina Le‘a
had indeed completely “sold the property,” the Land
Use Commission’s reversion order presumably could
not have affected Bridge Aina Le‘a’s property interests.
Id. But see ECF No. 401, PageID #s 9602-03 (arguing
otherwise).
The jury was not persuaded. After deliberating,
the jury found that Bridge Aina Le‘a’s property interests were taken and, in so doing, necessarily determined that Bridge Aina Le‘a retained more than a
token interest in the 1,060-acre property at the time of
the reversion. See ECF No. 373. The jury’s determination is supported by adequate evidence.
The State’s position that Bridge Aina Le‘a “sold
the property” is, absent qualification, factually unsupported. Nothing in the record indicates that the property was completely sold. In fact, the State concedes
that Bridge Aina Le‘a owned the “right of title to the
land in issue” at all relevant times. See ECF No. 385-1,
PageID # 9294 (citation omitted). That concession directly contradicts the State’s position that Bridge Aina
Le‘a’s sale of the property left it with nothing that
could have been affected by the reversion. See id.

64a
The State’s real claim seems to be that Bridge
Aina Le‘a sold some of its property interests, and the
remaining interests were not adversely affected by the
Land Use Commission’s reversion order. The State refers to testimony indicating that DW Aina Le‘a, a separate entity, executed a purchase and sale agreement
under which it “gained possession of the property and
had all development rights prior to the reversion.” Id.
Even taking the State’s characterizations of the record
at face value, they support, at most, the conclusion that
Bridge Aina Le‘a sold two sticks out of its ownership
bundle: the right to develop the property and the right
to exclude DW Aina Le‘a. Even assuming that this conclusion is correct, the jury could have reasonably concluded that Bridge Aina Le‘a retained other property
rights, including title to the land; the right to exclude
entities other than DW Aina Le‘a; and the right to sell
these residual interests. The jury, moreover, could have
reasonably inferred that the reversion order diminished the value of Bridge Aina Le‘a’s residual interests.
For example, if otherwise barren property cannot be
developed, it is not a stretch to think that the right to
exclude someone from the land is close to worthless.
The State has failed to demonstrate an entitlement to judgment as a matter of law based on the idea
that the State had no property interest affected by the
reversion. It has not identified evidence indicating that
Bridge Aina Le‘a sold its ownership of the property
outright, or that its residual property interests following the transaction with DW Aina Le‘a were so “limited” as to be immune from the reversion order, or that

65a
the State’s view of the record is the only reasonable
view. See Mathis v. Pacific Gas & Elec. Co., 75 F.3d 498,
501 (9th Cir. 1996) (“Judgment as a matter of law is
appropriate ‘if the evidence and its inferences considered as a whole and viewed in the light most favorable
to the nonmoving party, can support only one reasonable conclusion – that the moving party is entitled to
judgment not withstanding the verdict.’“ (quoting Kern
v. Levolor Lorentzen, Inc., 899 F.2d 772, 775 (9th Cir.
1990))).
2. Bridge Aina Le‘a Properly Asserted a
Temporary Regulatory Takings Claim.
Bridge Aina Le‘a’s takings claim, which concerns
a zoning order later invalidated in state court, appears
to fit comfortably within the Supreme Court’s established jurisprudence on temporary regulatory takings.
See, e.g., Lucas v. S.C. Coastal Council, 505 U.S. 1003,
1008-14 (1992); First English Evangelical Lutheran
Church v. Los Angeles, 482 U.S. 304, 310, 318 (1987);
see also Res. Invs., Inc. v. United States, 85 Fed. Cl. 447,
468-69, 480-84 (2009). The State, however, argues that
takings claims are defective when based on erroneous
findings of fact by administrative agencies that sit in a
“quasi-judicial capacity.” ECF No. 385-1, PageID #s
9294-25. The State’s argument is not entirely clear, but
as this court understands it, it is without merit.
The State may be attempting to mischaracterize
Bridge Aina Le‘a’s takings claim. See ECF No. 401,
PageID # 9604. According to the State, the “situation

66a
here is that the Land Use Commission, in reverting the
property, found that there was no ‘substantial commencement’ on the project. . . . The Supreme Court of
Hawaii held that the finding of fact was erroneous.
Plaintiff [wrongly] contends this is a taking.” ECF No.
385-1, PageID #s 9294-95. But Bridge Aina Le‘a’s takings claim is not simply based on an erroneous factual
finding; it is based on a reversion order issued by the
Land Use Commission. See ECF No. 1-2, PageID #s 44,
48-50; cf. Lingle v. Chevron U.S.A., Inc., 544 U.S. 528,
543 (2005) (explaining that an “inquiry” into a “regulation’s underlying validity” “is logically prior to and distinct from the question whether a regulation effects a
taking”). The State conflates the reasoning behind the
order – the subject of separate litigation – with the effect of the order itself. It is the effect of the order that
is the focus of takings analysis; if the Land Use Commission had engaged in the same fact-finding but decided not to issue the reversion order, there would be
no takings claim. See, e.g., Murr v. Wisconsin, 137 S. Ct.
1933, 1942 (2017) (asking if government action “goes
too far” and is unduly “burdensome” in its impact on
property, not whether the action is factually supported
and properly reasoned); cf. ECF No. 385-1, PageID
# 9296 (conceding on behalf of the State that “there is
no difference for [ ] takings analysis between the reversion being upheld or vacated”). There is nothing unusual or improper about Bridge Aina Le‘a’s temporary
regulatory takings claim.
Alternatively, the State may be arguing that agencies should be immune from takings claims whenever

67a
their actions are based on erroneous findings of fact.
See ECF No. 385-1, PageID # 9295. Neither precedent
nor common sense supports such a rule, which would
validate shoddy fact-finding by agencies. Takings
claims can be brought regardless of whether government action is improperly reasoned or has been judicially nullified. See First English, 482 U.S. at 318;
Res. Invs., 85 Fed. Cl. at 468-69, 480-84; see also ECF
No. 401, PageID # 9605 (“[T]he LUC cannot leverage
its wrong . . . ‘substantial commencement’ determination into an absolution for violating Bridge’s constitutional rights.”).
Finally, the State may be attempting to extend to
the sovereign the “quasi-judicial immunity” given to
agency officials “who perform functions closely associated with the judicial process.” See Bridge Aina Le‘a,
LLC v. State of Hawaii Land Use Comm’n, 125 F. Supp.
3d 1051, 1074 (D. Haw. 2015) (quoting Duvall v. Cty. of
Kitsap, 260 F.3d 1124, 1133 (9th Cir. 2001)); see also
ECF No. 401, PageID # 9603 (so interpreting the
State’s argument). The law does not recognize such an
extension, as the State appeared to recognize earlier in
this litigation. In its Motion to Dismiss filed on July 27,
2011, the State, while arguing that the Land Use Commissioners could invoke quasi-judicial immunity,
seemed cognizant that the liability of the Land Use
Commission (and thus the State) was governed by a
different immunity doctrine. See ECF No. 14-1, PageID
#s 165, 194 (arguing that “the Commissioners in their

68a
individual capacity are entitled to absolute quasi[-]
judicial immunity” and that “the LUC, as an agency of
the State, has sovereign immunity”).
The State’s initial understanding was correct. Sovereign immunity, not quasi-judicial immunity, governs
whether State agencies can be sued for Takings Clause
violations. In extending quasi-judicial immunity to certain “agency officials,” the Ninth Circuit has observed
that “[p]ermitting suits against [ ] quasi-judicial decision makers would discourage knowledgeable individuals from serving” their government, as the threat of
individual liability might undermine their “independent and impartial exercise of judgment.” Buckles v.
King Cty., 191 F.3d 1127, 1133, 1137 (9th Cir. 1999)
(emphases added) (quoting Antoine v. Byers & Anderson, Inc., 508 U.S. 429, 435-36 (1993)). These observations do not translate to a suit against a State agency.
Moreover, the Ninth Circuit has held that State
agencies cannot invoke sovereign immunity when they
are sued in state court for Takings Clause violations.
See Jachetta v. United States, 653 F.3d 898, 909 (9th
Cir. 2011) (explaining that, under the Takings Clause,
a State is constitutionally “required to provide” just
compensation “notwithstanding sovereign immunity”
(quoting DLX, Inc. v. Kentucky, 381 F.3d 511, 528 (6th
Cir. 2004))). The present action was removed from the
state court it originated in to the federal forum by the
State. See ECF No. 1, PageID # 2.
This court will not announce a novel doctrine of
“quasi-judicial sovereign immunity” that would permit

69a
an end-run around this constitutional guarantee. See
ECF No. 401, PageID # 9603 (“The State’s proposed,
legally unsupported expansion of judicial or quasijudicial immunity to the LUC as an entity, and therefore to the State itself, would destroy the rights that
the self-executing Takings Clause . . . [is] supposed to
guarantee.”).
The State draws a tenuous analogy between an
agency’s factual error and a court’s mistaken “findings
of fact,” which the State says cannot “effect[uate] a taking.” See ECF No. 385-1, PageID # 9295. This analogy
is unhelpful for three reasons.
First, as noted, Bridge Aina Le‘a’s takings claim
concerns the effect of an administrative order, not any
erroneous fact-finding that preceded it.
Second, the State assumes that an open legal
question – whether judicial orders can effectuate takings – will be resolved against takings plaintiffs. But
“[t]he contours and viability of the theory of so-called
‘judicial takings’ – where a court decision may be
deemed to have effectively taken property rights from
an individual – [remain] unclear even in the courts of
this country.” Jonna Corp. v. City of Sunnyvale, No. 17CV-00956-LHK, 2017 WL 2617983, at *6 (N.D. Cal.
June 16, 2017) (quoting Eliahu v. Israel, No. 14-cv01636-BLF, 2015 WL 981517, at *5 n.5 (N.D. Cal. Mar.
3, 2015)).
Third, even if a court agreed with the State’s argument that judicial takings are impossible, the agreement would almost certainly be with respect to actual

70a
courts. A broader holding extending to administrative
or other nonjudicial actions would clash with numerous decisions explaining, for example, that the denial
of an individual’s permit application can effectuate a
taking. See, e.g., Del Monte Dunes at Monterey, Ltd. v.
City of Monterey, 920 F.2d 1496, 1500 (9th Cir. 1990);
see also MacLeod v. Santa Clara Cty., 749 F.2d 541,
544-45 (9th Cir. 1984) (“The law is well settled [ ] that
the application of a general zoning law to particular
property effects a taking if ‘the ordinance . . . denies an
owner economically viable use of his land.” (quoting
Agins v. City of Tiburon, 447 U.S. 255, 260 (1980))).
The State fails to show that it is entitled to judgment as a matter of law on this ground.
3. The Jury’s Finding of a Lucas Taking Is Supported by Adequate Evidence.
According to the State, the evidence at trial failed
to show a Lucas taking. See ECF No. 385-1, PageID
# 9296. The jury had good grounds for disagreeing. See
ECF No. 373.
A Lucas taking occurs when “a regulation [ ] ‘denies all economically beneficial or productive use of
land.’ ” Murr, 137 S. Ct. at 1942 (quoting Palazzolo v.
Rhode Island, 533 U.S. 505, 617 (2001)). By contrast,
there is no Lucas taking when “a regulation impedes
the use of property without depriving the owner of all
economically beneficial use.” Id. at 1943 (emphasis
added); see also, e.g., Sierra Med. Servs. Alliance v.

71a
Kent, 883 F.3d 1216, 1226 (9th Cir. 2018). On the issue
of Lucas takings, this court instructed the jury as follows:
Under Taking Analysis No. 1, you must determine whether the action of the Land Use
Commission, before it was invalidated in the
state courts, denied Bridge Aina Le‘a all economically beneficial or productive use of its
land.
If you find that, while the Land Use Commission’s reversion order was in effect, Bridge
Aina Le‘a would not have been able to make
any economically viable use of its property
without a change in the law, you must find for
Bridge Aina Le‘a with respect to Taking Analysis No. 1. However, if you find that there were
permissible uses of Bridge Aina Le‘a’s property even with the development restriction in
place, and if you further find that those uses
were economically beneficial or productive,
then you must find in favor of the Land Use
Commission with respect to Taking Analysis
No. 1.
Evidence that the land had positive economic
value notwithstanding the action of the Land
Use Commission may be strong evidence of
the availability of economically beneficial or
productive uses. However, a determination
that the land had positive economic value
does not, on its own, necessarily mean that no
taking has occurred under Taking Analysis
No. 1. For example, a taking may occur when
a regulation forbids development on a

72a
property and no competitive market exists for
that property without the possibility of development, or if a landowner cannot sell the
property to someone to use in accordance with
the regulation.
ECF No. 372, PageID #s 7457-58. This instruction was
given with the agreement of the parties.
The State asserts five reasons that no Lucas taking occurred as a matter of law. None has merit.
a. Bridge Aina Le‘a Satisfied Its
Burden of Proof Under Lucas
with Respect to the Economic
Impact of the Reversion.
According to the State, a Lucas plaintiff must present evidence demonstrating the economic nonviability of every possible permissible use of its land. See
ECF No. 385-1, PageID #s 9298-99. The State claims
that Bridge Aina Le‘a did not meet this burden, because at trial it “failed to consider” the economic value
of “approximately 200” “unusual uses” that might be
permitted in the agricultural district pursuant to “special permits.” See id. Such “unusual uses” included:
rock quarrying operations; cinder and sand
mining facilities; concrete batching plants;
construction waste facilities; landfills; public
and private sewage treatment plants; gardens
and zoos; schools; memorial parks; crematoriums; agricultural tourism facilities; commercial facilities; offices; gas stations; solid waste
recycling facilities; private storage facilities;

73a
telecommunication facilities and structures;
and power generation facilities (fossil fuel and
renewable, including solar, wind, geothermal,
hydropower, and biofuel[)].
Id. at PageID #s 9298-99. Bridge Aina Le‘a did not present evidence specifically addressing the economic
value of each of these potentially permissible uses; the
State claims Bridge Aina Le‘a therefore “failed to meet
its burden of proof of showing the non-existence of economically beneficial uses.” Id. at PageID # 9298.
The State would saddle Bridge Aina Le‘a with a
Sisyphean task. Takings law requires less. Bridge Aina
Le‘a presented evidence that a wide variety of potential permissible uses were not economically viable, including uses expressly permitted by statute or common
or prevalent within the geographic area. See ECF No.
401, PageID #s 9607-09. Its expert, Bruce Plash, testified that “all uses permitted in the Agricultural District” by statute were not economically viable. See id.
at PageID # 9608 (describing Plash’s testimony). He
also testified that “there were no agricultural operations on site or anywhere near the Property.” See id.
Bridge Aina Le‘a also put forward general evidence
concerning the nature of the land. That evidence indicated that the land was akin to “a giant asphalt parking lot covered with big rocks,” that it had “very poor”
soil, and that it was “not suitable for agriculture.” See
id. at PageID #s 9607-08 (quoting ECF No. 382-10,
PageID #s 7998, 8040). This presentation of evidence
was sufficient.

74a
When a party has the burden of proving a negative, it is not unusual for a court to accept a less-thanexhaustive showing. See, e.g., Celotex Corp. v. Catrett,
477 U.S. 317, 325 (1986) (holding that the burden of
providing the absence of genuine issues of material
fact may “be discharged by ‘showing’ – that is, pointing
out to the district court – that there is an absence of
evidence to support the nonmoving party’s case”);
United States v. Chevron Corp., No. C 94-1885 SBA,
1996 WL 444597, at *3 (N.D. Cal. May 30, 1996) (adopting a “shared burden” approach to an attorney-client
waiver issue to “alleviat[e] the onerous burden . . . to
prove a negative”). To require more would, in many circumstances, be to demand the impossible. See Weimerskirch v. Comm’r of Internal Revenue, 596 F.2d 358, 361
(9th Cir. 1979) (recognizing the “practical” difficulty of
attempting “to prove a negative” (quoting Elkins v.
United States, 364 U.S. 206, 218 (1960))); United States
v. Fei Lin, 139 F.3d 1303, 1308 (9th Cir. 1998) (noting
“the difficulties inherent in requiring [a party] to prove
a negative” (citing United States v. Dominquez-Mestas,
929 F.2d 1379, 1384 (9th Cir. 1991))).
Of course, if a takings defendant believes that a
permissible and economically viable use has been overlooked, it may present evidence concerning that use.
See, e.g., Res. Invs., 85 Fed. Cl. at 490. If that presentation is successful, the plaintiff ’s Lucas claim will fail.
See, e.g., Sierra Med. Servs. Alliance, 883 F.3d at 1226
(holding that there was no Lucas taking because the
regulation at issue did not “require the Plaintiffs `to
sacrifice all economically beneficial uses’ of their

75a
property” (quoting Lucas, 505 U.S. at 1019-20)). In this
case, however, the State put forward no evidence concerning the economic viability of any alternative use.
It merely observed that “Hawaii law allows owners of
agricultural land to obtain permits for unusual uses”
and that Bridge Aina Le‘a “failed to consider” them. See
ECF No. 385-1, PageID # 9298 (emphasis omitted) (citing Haw. Rev. Stat. § 205-6). The State presented no evidence, whether by expert or lay testimony, that any of
these hypothetical uses was “economically viable.” See
ECF No. 401, PageID # 9606; see also Res. Invs., 85 Fed.
Cl. at 490 (faulting the defendant’s failure “to establish
that its proposed alternatives were economically viable
for plaintiffs, i.e., that these uses would be profitable
rather than result in a net loss”).
The State’s reference to special permits does not,
as the State would have it, “destroy[ ] plaintiff ’s Lucas
claim.” See ECF No. 385-1, PageID # 9298. Bridge Aina
Le‘a’s presentation of evidence concerning the economic nonviability of all statutorily permitted uses, in
combination with the State’s failure to present any evidence concerning the economic viability of potential
“unusual” uses, adequately supports the jury’s finding
of a Lucas taking. Cf. Res. Invs., 85 Fed. Cl. at 489 (rejecting the defendant’s proffer of “nominal uses” and
“uses in name” only, which “turn out to be mere attorney argument without support in the record,” and noting that “this court is bound to ‘discount proposed
[economically viable] uses that do not meet a showing
of reasonable probability that the land is both physically adaptable for such use and that there is a

76a
demand for such use in the reasonably near future’ ”
(alteration in original) (quoting Loveladies Harbor, Inc.
v. United States, 21 Cl. Ct. 153, 158 (1990))).
b. Lucas Claims Are Not Negated by
the Existence Of Permissible Uses
that Could Generate Revenue
Only at a Net Loss.
According to the State, Lucas claims fail if there
are any “permissible uses” that can “generate revenue
and be productive,” regardless of whether the uses are
also “profitable.” ECF No. 385-1, PageID # 9297, 9299.
The State’s proposal makes a nullity of the Lucas test.
According to the State, Bridge Aina Le‘a’s Lucas
claim should fail in the wake of Bruce Plash’s uncontradicted testimony that some permissible uses in the
agricultural district, like wind farming, could “generate[ ] revenue” while losing money. Id. at PageID #s
9297-99. But uses resulting in losses are not automatically “economically beneficial uses.” See Sierra Med.
Servs. Alliance, 883 F.3d at 1226 (emphasis added)
(quoting Lucas, 505 U.S. at 1019-20)); see also, e.g.,
Murr, 137 S. Ct. at 1943 (describing Lucas takings as
regulations that deprive “the owner of all economically
beneficial use” (emphasis added)); Tahoe-Sierra Pres.
Council, Inc. v. Tahoe Reg’l Planning Agency, 535 U.S.
302, 330 (2002) (similar); Palazzolo, 533 U.S. at 617
(similar); Res. Invs., 85 Fed. Cl. at 490 (faulting the defendant for failing “to establish that its proposed

77a
alternative[uses] . . . would be profitable rather than
result in a net loss”).
It is hard to imagine any zoning ordinance that
would run afoul of the State’s test. Consider an ordinance that banned the “construction of occupiable improvements” on land, see Lucas, 505 U.S. at 1008-09,
and also prohibited living on the land. Even in this
highly restricted situation, there might be some “permissible” uses that could “generate revenue.” See ECF
No. 385-1, PageID # 9297. The landowner, for example,
might purchase rare Picasso paintings to lay on the
land and sell viewing rights for one dollar. This “Picasso use” would generate ticket revenue, probably at
an enormous net loss. Under the State’s view of Lucas,
the landowner would have no Lucas claim. This reading of Lucas would make a nullity of the very concept
of a Lucas taking. Even if Lucas claims are rarely viable, they cannot be impossible to establish.
“[T]he term ‘economically viable use’ has yet to be
defined with much precision.” Del Monte Dunes at
Monterey, Ltd. V. City of Monterey, 95 F.3d 1422, 1432
(9th Cir. 1996) (quoting Outdoor Sys., Inc. v. City of
Mesa, 997 F.2d 604, 616 (1993)), aff ’d, 526 U.S. 687
(1999). The Ninth Circuit, however, has consistently
understood the term to imply positive market value.
For example, the Ninth Circuit has adopted a test applied by the Second Circuit that asks “whether the
property use allowed by the regulation is sufficiently
desirable to permit property owners to sell the property
to someone for that use.” Id. at 1433 (emphasis added)
(quoting Park Ave. Tower Assocs. v. City of New York,

78a
746 F.2d 135, 139 (2d Cir. 1984)). Put another way, the
key question is whether a “competitive market exists”
for the present uses. Id. at 1433; see also Park Ave.
Tower Assocs., 746 F.2d at 139. The Ninth Circuit’s focus on positive market value strongly implies that it
does not understand “economically beneficial use” to
include a use resulting in an economic loss. Nothing
the Supreme Court has said disrupts this basic understanding. See City of Monterey v. Del Monte Dunes,
Ltd., 535 U.S. 687 (1999).
In advancing its view of Lucas law, the State cites
Palazzolo v. Rhode Island, 505 U.S. 606 (2001). In
Palazzolo, the Supreme Court allowed dismissal of a
Lucas takings claim involving Rhode Island’s wetlands
regulations on the ground that the regulations did not
deprive Palazzolo of “all economically beneficial use” of
his property. Id. at 630. The Court noted that Palazzolo
retained the ability “to build a substantial residence on
[his] 18-acre parcel,” and accepted the lower court’s
finding that this “development value” was worth
“$200,000.” Id. at 630-31. The State attempts to recast
Palazzolo as nullifying a Lucas claim on the sole
ground that “houses could have been built on property.”
See ECF No. 385-1, PageID # 9298 (citing Palazzolo,
533 U.S. at 631). The State overlooks the positive economic value of the use – some $200,000 – that the Supreme Court expressly observed was more than “a
token interest.” See Palazzolo, 533 U.S. at 631.
Palazzolo in no way suggests that the ability to
build a home, at whatever cost, will invariably defeat
a Lucas claim. The State points out that Bridge Aina

79a
Le‘a may have been able to construct a number of residences on the 1,060-acre property despite the agricultural classification. See ECF No. 385-1, PageID # 9298.
But see ECF No. 401, PageID #s 9610-11 (arguing otherwise). Even if that is so, other evidence (as the State
concedes) indicated that the construction of such residences “would not be profitable.” See ECF No. 385-1,
PageID # 9298 (discussing the testimony of Bruce
Plasch). Putting in power, water, and sewer lines would
have been costly, and cutting through solid lava rock to
lay a foundation would not have been easy. The jury
could have reasonably believed that the cost of constructing houses would have been prohibitive. The
State is not entitled to judgment as a matter of law on
this issue.
c. Lucas Does Not Require that
Property Be Left Entirely Without Value.
The State also claims that Bridge Aina Le‘a’s Lucas claim fails because the evidence demonstrated
“that the property retained millions of dollars of worth
in the agricultural district.” ECF No. 385-1, PageID
# 9300. The State’s argument rests on another mischaracterization of takings law: a false belief that Lucas
takings demand “a ‘complete elimination of [economic]
value.’ ” See id. (quoting Tahoe-Sierra, 535 U.S. at 330).
Economic worthlessness is undoubtedly sufficient
to establish a Lucas taking. See Lucas, 505 U.S. at
1007, 1016 n.7. As the Supreme Court explained in

80a
Tahoe-Sierra Preservation Council, Inc. v. Tahoe Regional Planning Agency, 535 U.S. 302 (2002), “compensation is required when a regulation deprives an owner
of ‘all economically beneficial uses’ of his land.” 535
U.S. at 330. “Under that rule, a statute that ‘wholly
eliminate[s] the value’ of [a] fee simple title clearly
qualifie[s] as a taking.” Id. (quoting Lucas, 535 U.S. at
330).
But demonstrating economic worthlessness is not
necessary to stake out a Lucas claim. See ECF No. 401,
PageID # 9606. The Ninth Circuit has explained that
“[f ]ocusing the economically viable use inquiry solely
on market value or on the fact that a landowner sold
his property for more than he paid” is “inappropriate.”
Del Monte Dunes at Monterey, 95 F.3d at 1432-33. “Although the value of the subject property is relevant
to the economically viable use inquiry, our focus is primarily on use, not value.” Id.; see also, e.g., TahoeSierra Pres. Council, Inc. v. Tahoe Reg’l Planning
Agency, 216 F.3d 764, 780 (9th Cir. 2000) (explaining
that positive economic value “provides strong evidence
of the availability of ‘economically beneficial or productive uses’ ”), aff ’d, 535 U.S. 302 (2002).1 “Indeed, several courts have found a taking even where the ‘taken’

1

A portion of the Ninth Circuit’s Tahoe-Sierra decision was
later overruled on other grounds by the en banc decision in Gonzalez v. Arizona, 677 F.3d 383 (9th Cir. 2012). That portion does
not affect the analysis relied on here. See id. at 390 n.4 (overruling
Tahoe-Sierra, 216 F.3d at 786-88, to the extent it suggested a
position contrary to Gonzalez with respect to the doctrine of law
of the case).

81a
property retained significant value.” Del Monte Dunes
at Monterey, 95 F.3d at 1433 (citations omitted).
Economic value can be positive despite the absence of an economically beneficial use if there is no
possibility for development absent a change in the law.
That is why the Ninth Circuit maintains that the ability to sell property is an economically beneficial use
only when “the property use allowed by the regulation
is sufficiently desirable to permit property owners to
sell the property to someone for that use”; if “no competitive market exists for the property without the possibility of [a legal change permitting] development, a
taking may have occurred.” Del Monte Dunes at Monterey, 95 F.3d at 1433 (emphases added) (quoting Park
Ave. Tower Assocs., 746 F.2d at 139). In this case, the
jury could have reasonably concluded that any residual market value was not the result of some extant,
permissible, and economically beneficial use, but derived instead from the chance that the land would be
reclassified as urban. Thus, despite the land’s positive
market value in the agricultural district, the jury’s
finding of a Lucas taking is still supported by adequate
evidence.
The Ninth Circuit’s decision in Horne v. U.S. Department of Agriculture, 750 F.3d 1128 (9th Cir. 2014),
rev’d on other grounds, Horne v. Department of Agriculture, 135 S. Ct. 2419 (2015), is not to the contrary.
Horne dealt with a complex regulatory scheme that required raisin producers to divert a portion of their
yields to a raisin reserve maintained by the Department of Agriculture. See id. at 1132. Whenever the

82a
agency sold these reserves, usually in noncompetitive
markets, the producers received a pro rata share of the
sales less administrative costs. See id. Sometimes that
pro rata share was “significant; in other years it [was]
zero.” Id. In a portion of the Horne decision that was
not reviewed by the Supreme Court, the Ninth Circuit
concluded that the raisin regulations did not effectuate
a Lucas taking.2 The Ninth Circuit stated in a footnote
that “[i]f the property [affected by a regulation] retains
any residual value after the regulation’s application,
Penn Central applies.” Id. at 2419 n.17. This statement
came after the Ninth Circuit had already determined
that the regulations did not cause the Hornes to “lose
all economically valuable use of their [ ] property.” Id.
at 1140 (emphasis added). Consequently, Horne is not
a case in which the Ninth Circuit relied solely on residual value to deny a Lucas taking claim – and the
reasoning in Del Monte Dunes was binding on the
Horne panel in any event.
d. Retrospectively Temporary Regulations Can Effectuate Lucas
Takings.
According to the State, Bridge Aina Le‘a’s Lucas
claim also fails because the Hawaii Supreme Court
2

The Supreme Court reversed the Ninth Circuit’s determination that there was no taking on the ground that the Ninth Circuit had wrongly rejected the plaintiff ’s Loretto theory. See
Horne, 135 S. Ct. at 2427-28. The Supreme Court did not consider
the separate Lucas taking theory, which the Hornes had not relied on when petitioning for certiorari. See id.

83a
nullified the Land Use Commission’s reversion order.
See ECF No. 385-1, PageID # 9303. This argument is
based on the State’s broad reading of the Supreme
Court’s decision in Tahoe-Sierra, which the State characterizes as holding that that any “temporary” government regulation cannot be challenged under Lucas. See
id. (citing 535 U.S. at 302).
The State is ignoring an important distinction between facially temporary regulations and retrospectively temporary regulations. In Tahoe-Sierra, the
Supreme Court held that regulations with built-in expiration dates generally cannot effectuate Lucas takings (also known as categorical or per se takings). See
535 U.S. at 320 (holding that a “temporary moratorium” on development, set to expire on the adoption of
a land use plan, could not qualify for Lucas treatment).
The Ninth Circuit has yet to decide whether, in a postTahoe-Sierra world, a temporally unbounded regulation that is amended, repealed, or annulled in court
can effectuate a Lucas taking. But the Ninth Circuit’s
decision in Tahoe-Sierra (which was affirmed by the
Supreme Court), as well as the Supreme Court’s decisions in First English, Lucas, and Tahoe-Sierra, indicate that such “retrospectively temporary regulations”
can still result in categorical takings.
The Supreme Court confronted a retrospectively
temporary land-use regulation in First English Evangelical Lutheran Church v. Los Angeles, 482 U.S. 304
(1987). The unusual posture of the case required the
Court to assume that the regulation “took” plaintiff ’s
property by denying him “all use” of it. Id. at 311-12.

84a
The Court also assumed that the provision remained
in effect until it was “ultimately invalidated by the
courts.” Id. at 310. Given these assumptions, First English held that the eventual “abandonment by the government [of the regulation, following its judicial
invalidation, still] require[d] payment of compensation
for the period of time during which [the] regulation[ ]
den[ied] [the] landowner all use of his land.” Id. at 318.
The analysis in First English was necessarily restricted to the issue of just compensation. But the
Court still suggested that a retrospectively temporary
regulation denying “all use” of property would effectuate a categorical taking. Analogizing the land-use regulation at issue to cases such as Kimball Laundry Co.
v. United States, 338 U.S. 1 (1949), in which “the government [ ] temporarily exercised its right to use private property,” the Court declared that such
“ ‘[retrospectively] temporary’ takings . . . are not different in kind from permanent takings.”3 First English,
482 U.S. at 318.
Five years later, in Lucas v. South Carolina
Coastal Council, 505 U.S. 1003 (1992), the Supreme
Court once again confronted retrospectively temporary
government action, this time expressly holding that
3

This court has inserted the bracketed word “retrospectively” in the quotation to match the parlance used in this Order.
First English defined “ ‘temporary’ regulatory takings” as “regulatory takings which are ultimately invalidated by the courts.”
482 U.S. at 310. It was not until Tahoe-Sierra that retrospectively
temporary regulations were distinguished from facially temporary regulations.

85a
such action effectuated a categorical taking. The challenged statute, at the time it was enacted, “flatly prohibited” the “construction of occupiable improvements”
on a barrier island known as the Isle of Palms, where
Lucas had property. Id. at 1008-09. The lower court determined that this statute rendered Lucas’s parcel
“valueless”; this finding went unchallenged in the Supreme Court. Id. at 1009. While the appeal was pending, the South Carolina legislature amended the
statute to permit some future development on the Isle
of Palms. The Supreme Court held that the statute still
effectuated a categorical taking, explaining that such
an amendment had no effect on whether there had
been a temporary categorical taking during “the 19881990 period” when the original statute was in effect.
Id. at 1010-14 (citing First English, 482 U.S. 304).4
The litigation in Tahoe-Sierra, unlike First English and Lucas, involved a facially temporary development moratorium on property near Lake Tahoe. The
Ninth Circuit noted that there was “no evidence that
owners or purchasers of property in the basin anticipated that the temporary moratorium would continue
indefinitely.” 216 F.3d at 782. The Ninth Circuit assumed arguendo that the temporary moratorium “prevented all development in the period during which it
was in effect.” Id. at 780 n.20. The court held that the
moratorium nonetheless “did not effect a categorical
4

The Supreme Court’s citation to First English suggests
that, had it been asked to consider the issue, it would have held
that the retrospectively temporary regulation in that case effectuated a categorical taking.

86a
taking” because it “did not deprive the plaintiffs of all
of the [economic] value or use of their property.” Id. at
782.
In reaching this conclusion, the Ninth Circuit emphasized the limited duration of the regulation, explaining that the “temporary moratorium did not
deprive the plaintiffs of all `use’ of their property” and
had no effect on future uses whatsoever. Id. Moreover,
the temporary moratorium “did not render the plaintiff ’s property valueless” because the “anticipat[ion]”
that the moratorium would end ensured that the property retained “substantial present value” based on the
value of the future uses. Id. at 781.
The Ninth Circuit then drew a distinction between
facially and retrospectively temporary regulations:
This “economic reality is precisely what differentiates a permanent ban on development,
even if subsequently invalidated, from a temporary one. . . . [W]hen a permanent development ban (like the one at issue in Lucas) is
enacted, the value of the affected land plummets, on account of the fact that the ban bars
all future development of the property.”
Id. at 781 n.26 (emphasis added).
On certiorari, the Supreme Court seemed to rely
on the same distinction. The Court described Lucas as
having held that a “permanent `obliteration of the
value’ of a fee simple estate constitutes a categorical
taking.” Tahoe-Sierra, 535 U.S. at 331. It noted that
Lucas could “not answer the question whether a

87a
regulation prohibiting any economic use of land for a
32-month period has the same legal effect.” Id. at 33132 (emphasis added).
The Court then articulated a professedly “narrow”
holding that “a temporary regulation that, while in effect, denies a property owner all viable economic use
of her property” does not always effectuate a Lucas
taking. Id. at 307, 320. The Court again distinguished
Lucas, noting that “[a]s the statute read at the time of
trial, it effected a taking that ‘was unconditional and
permanent.’ ” Id. at 329-30 (citing Lucas, 505 U.S. at
1012).5 But “[l]ogically, a fee simple estate cannot be
rendered valueless by a temporary prohibition on economic use, because the property will recover value as
soon as the prohibition” lapses. Id. at 332 (emphasis
added). To permit recovery on a categorical theory
would mean violating the parcel-as-a-whole-rule; i.e.,
the rule that a regulation should be analyzed based on
its effect on the parcel “in its [temporal] entirety.” Id.
at 327.
The reasoning driving Tahoe-Sierra applies only
to facially temporary regulations, not to regulations
that are temporary only in retrospect. Setting aside
5

The Court focused on how the statute read “at the time of
trial.” Tahoe-Sierra, 535 U.S. at 329. But see Res. Invs., 85 Fed.
Cl. at 484 (holding in the context of a challenge to a permit denial
that was later invalidated that whether there was “a categorical
taking of the parcel as a whole, a partial taking [under Penn Central], or no taking at all depends only on the effect of that particular denial on plaintiffs’ property interests at the time of the
denial” (second emphasis added)).

88a
regulations with outlandish time horizons, it is impossible for a facially temporary regulation to destroy all
economically beneficial use of property, as future uses
will retain some present value. See id. at 332; TahoeSierra, 216 F.3d at 728. Thus, Tahoe-Sierra’s “narrow”
holding makes sense. The situation changes, however,
when a regulation is facially unbounded. Because such
a regulation will affect the permissibility of present
and future uses, it is possible that the landowner has
retained no permissible economically beneficial uses,
and a categorical takings claim may be viable. See
Tahoe-Sierra, 216 F.3d at 781 n.26; see also Res. Invs.,
85 Fed. Cl. at 480-84.
The Supreme Court has recognized that a later
amendment to a regulation or a judicial invalidation
cannot erase any taking “for the period of time during
which regulations deny a landowner all use of his
land.” First English, 482 U.S. at 318; see also Lucas, 505
U.S. at 1010-14; cf. Tahoe-Sierra, 535 U.S. at 328
(“[W]here the government’s activities have already
worked a taking of all use of property, no subsequent
action by the government can relieve it of the duty to
provide compensation for the period during which the
taking was effective.” (quoting First English, 482 U.S.
at 321)).
Similarly, only facially temporary regulations can
trigger violations of the parcel-as-a-whole rule. As the
Supreme Court explained in Tahoe-Sierra, a regulation with a 32-month duration can effectuate a categorical taking only if a court were to “effectively sever
a 32-month segment from the remainder [of the fee],

89a
and then ask whether that segment has been taken in
its entirety.” 535 U.S. at 331. Such “conceptual severance,” the Supreme Court observed, would violate the
parcel-as-a-whole rule. Id. By contrast, an unbounded
regulation “extinguish[es] present and future use interests.” Res. Invs., 85 Fed. Cl. at 481; see also TahoeSierra, 216 F.3d at 781 n.26. Accordingly, one need not
slice the parcel into temporal segments to conclude
that a categorical taking took place while the regulation was in effect.
In sum, Tahoe-Sierra is properly understood as
creating an exception to the rule outlined in First English and Lucas. The amendment, repeal, or nullification of government action cannot nullify the duty of the
government to provide compensation “for the period of
time during which regulations deny a landowner all
use of his land.” See First English, 482 U.S. at 318. But
since facially temporary regulations cannot, by definition, destroy the economic viability of future uses, they
cannot be Lucas takings.
The only other federal court to have articulated a
definitive position on this issue reached a similar conclusion.6 In Resource Investments, Inc. v. United States,
6

The Federal Circuit has addressed this issue in dicta, “refrain[ing] from ruling out the rare possibility that a temporary
categorical taking could exist.” Sartori v. United States, 67 Fed.
Cl. 263, 275 (2005); see also Seiber v. United States, 364 F.3d 1356,
1368 (Fed. Cir. 2004) (“[O]ur case law suggests that a temporary
categorical taking may be possible. In Boise Cascade[,] we explained that the Supreme Court may have only ‘rejected [the] application of the per se rule articulated in Lucas to temporary
development moratoria.’ ” (third alteration in original) (internal

90a
85 Fed. Cl. 447 (2009), the plaintiffs argued that a
permit denial constituted a categorical taking under
Lucas, even though the denial had been overturned in
court. See id. at 484. The defendants, like the State in
this case, replied that “there is no such thing as a temporary categorical taking.” Id. at 468. The court in
Resource Investments sided with the plaintiffs. It drew
a distinction between facially temporary regulations
and retrospectively temporary regulations, holding
that the latter can still undergird a Lucas claim:
[In Tahoe-Sierra, the regulations at issue]
were expressly temporary when enacted. . . .
This, as the Supreme Court explained, was
not a taking of the parcel of the whole because
the landowners’ future interests, though diminished in value, always remained intact.
Thus, at the moment the moratorium took effect, it effected a taking of property values for
a finite and limited segment of time rather
than permanently and indefinitely.
In contract, when [the statute at issue] took
effect in Lucas, it prohibited any and all further development of the affected property, extinguishing the present and future use
interests rather than merely diminishing
their value. Although the South Carolina Legislature might have abrogated the [statute] by
subsequent statute or amended it, . . . the
[statute] was not temporary at the time it was
enacted. . . . [Thus, the statute] would and
citations omitted) (quoting Boise Cascade v. United States, 296
F.3d 1339, 1350 (Fed. Cir. 2002))).

91a
could only be temporary in retrospect, as it
was permanent by its own text.
Id. at 480-81 (internal citations omitted) (emphases in
original). Because “subsequent events cannot change
what property interests the taking took when it accrued[,]” the court held that “applying Lucas to plaintiffs’ [retrospectively] temporary regulatory takings
claim would [not] violate Tahoe-Sierra.” Id. at 469, 484.
The reversion order at issue here, like the statute
in Lucas and the permit denial in Resource Investments, “was permanent by its own text.” See Res. Invs.,
85 Fed. Cl. at 481. It became “temporary in retrospect”
only after the Hawaii Supreme Court intervened. See
id. (emphasis omitted); see also ECF No. 401, PageID
# 9615. Bridge Aina Le‘a is not precluded from litigating its Lucas claim solely because the reversion order
was overturned in court.
e. The Court Properly Instructed
the Jury that the Denominator
Was the 1,060-Acre Parcel.
The State’s final argument concerning Bridge
Aina Le‘a’s Lucas claim is that this court “erred in instructing the jury” that it should examine the impact
of the reversion order on the reclassified 1,060-acre
tract, rather than assessing whether the “entire 3,000
acre tract” owned by Bridge Aina Le‘a was deprived of
any economically viable use. ECF No. 385-1, PageID
# 9301. This argument requires some unpacking, but is
similarly without merit.

92a
The State’s argument implicates what is known as
the “denominator problem” in takings law, which asks
what “the proper unit of property [is] against which to
assess the effect of the challenged governmental action.” Murr v. Wisconsin, 137 S. Ct. 1933, 1938 (2017).
In Murr, the Supreme Court articulated a number of
factors that a court should weigh in setting the proper
denominator.7 See id. at 1946-49. After considering
these factors, this court instructed the jury, over the
State’s objection, as follows:
In determining whether the Land Use Commission’s action amounted to a taking, you
should restrict your analysis to the parcel of
land that was the subject of the Land Use
Commission’s reversion order (approximately
1060 acres). You should not examine what, if
any, impact the Land Use Commission’s action had on any other parcel of land.
ECF No. 372, PageID # 7454.
The above instruction was this court’s modification, over the State’s objection, of the following instruction submitted by the State:
When performing your taking analyses, you
must first determine “whether reasonable
7

The denominator issue was not expressly discussed in the
State’s earlier motion for judgment as a matter of law, but the
State presents the issue as subsumed in the portion of its motion
challenging the State’s Lucas claim. The court’s recollection is
that the denominator issue was first actually discussed when jury
instructions were settled. The State had included in its proposed
instructions its suggested denominator instruction.

93a
expectations about property ownership would
lead the plaintiff to anticipate that its land
should be treated as one parcel, or, instead, as
separate tracts.” To make this determination,
you should consider three factors.
First, you must “give substantial weight to the
treatment of the land, in particular how it is
bounded or divided, under state and local law.
The reasonable expectations of an acquirer of
land must acknowledge legitimate restrictions affecting his or her subsequent use
and dispensation of the property.”
Second, you “must look to the physical characteristics of the” plaintiff ’s [ ]property. These
include the physical relationship of any distinguishable tracts, the parcel’s topography,
and the surrounding human and ecological
environment.” You may consider whether “the
property is located in an area that is subject
to, or likely to become subject to, environmental or other regulations.”
Third, you “should assess the value of the
property under the challenged regulation,
with special attention to the effect of the burdended land on the value of other holdings.
Though a use restriction may decrease the
market value of the property, the effect may
be tempered if the regulated land adds value
to the remaining property, such as by increasing privacy, expanding recreational space, or
preserving surrounding natural beauty.”
ECF No. 323, PageID #s 6786-87 (quoting Murr, 137
S. Ct. at 1945-46.)

94a
The State believes that the court erred by either
1) failing to submit the denominator question and the
Murr factors to the jury, or 2) by not holding that the
denominator as a matter of law was the “entire 3,000
acre” parcel owned by Bridge Aina Le‘a, approximately
2,000 acres of which is classified as agricultural land.
See ECF No. 385-1, PageID #s 9302, 9314-15. The State
asks the court “to rectify [these] error[s]” by either declaring that the entire 3,000 acres is the proper denominator – which the State believes would negate Bridge
Aina Le‘a’s Lucas claim – or by ordering a new trial
and submitting the Murr factors to the jury. Id.
The court is not persuaded that it erred. The court
resolved the denominator question itself, rather than
submitting it to the jury because the “relevant parcel
determination is a question of law based on underlying
facts.” See Lost Tree Vill. Corp. v. United States, 707
F.3d 1286, 1292 (Fed. Cir. 2013) (citing Palm Beach
Isles Assocs. v. United States, 208 F.3d 1374, 1380 (Fed.
Cir. 2000)). In Murr, the Supreme Court described the
denominator question as an issue for courts to resolve,
and indeed resolved the question itself. See 137 S. Ct.
at 1950. Murr further analogized the denominator
problem to the issue of defining “property rights under
the Takings Clause.” Id. at 1944-45. That is another
“question of law for the judge” that is based on underlying facts. Phillips v. Marion Cty. Sherriff ’s Office, 494
Fed. App’x 797, 799 (9th Cir. 2012); see also Sierra Med.
Servs. Alliance v. Kent, 883 F.3d at 1223-25 (holding in
a takings case and as a matter of law that an interest
in reimbursement is a Fifth Amendment property

95a
interest). This court did not err in declining to submit
the ultimate Murr balance to the jury. See ECF No.
385-1, PageID # 9315.
The State also complains that this court resolved
the denominator question “without any motion by
plaintiff.” ECF No. 385-1, PageID # 9314. When a case
implicates a denominator problem, the timing of its
resolution will sometimes depend on the nature of any
factual disputes in the case. In some cases, it will be
possible for a court to resolve denominator issues before evidence is presented at trial. See, e.g., Kaiser Dev.
Co. v. City & Cty. of Honolulu, 649 F. Supp. 926, 948 (D.
Haw. 1986) (holding on summary judgment that in
“this case, Queen’s Beach is to be considered as a separate parcel for the purposes of determining whether
there has been a taking”), aff ’d, 898 F.2d 112 (9th Cir.
1990) (affirming for the “reasons stated” in the district
court’s opinion). But because the Murr balance depends on underlying facts, it is not always possible to
perform that balancing before trial. Cf. Am. Sav. &
Loan Ass’n v. Marin Cty., 653 F.2d 364, 367 (9th Cir.
1981) (reversing the district court’s denominator decision because there had been no resolution of the underlying “factual issue” of whether the two parcels
would have been “treated separately” had plaintiff
“submit[ted] a development plan”).
In this case, the parties did not raise the denominator issue before trial, and the question came before
the court when the court addressed the State’s proposed jury instruction on the issue. See ECF No. 323,
PageID # 6786. By that time, the court had heard

96a
evidence presented at trial. Based on that evidence, the
court instructed the jury that the proper denominator
was the 1,060-acre parcel. See ECF No. 372, PageID
# 7454. In so doing, the court followed the procedure
outlined by the Seventh Circuit in United States v.
105.40 Acres of Land, More or Less, in Porter County,
State of Indiana, 471 F.2d 207 (1972), under which “the
district judge should – upon proper consideration of evidence – decide the factual question whether the [ ] parcels . . . were functionally separate parcels . . . [and]
should then instruct the jury . . . consistent with [her]
preliminary factual determination.” Id. at 212.
Besides questioning the court’s decision to select
the denominator itself, the State also takes issue with
what denominator the court selected. See ECF No. 3851, PageID # 9301 (“Under Murr, the denominator of the
property is the entire 3,000 acre project area, not
merely the 1,060 acre urban portion”). The court is not
persuaded that its selection was in error.
In setting the denominator, a court must ultimately decide “whether reasonable expectations about
property ownership would lead a landowner to anticipate that his holdings would be treated as one parcel,
or, instead, as separate tracts.” Murr, 137 S. Ct. at
1945. “The inquiry is objective, and the reasonable expectations at issue derive from background customs
and the whole of our legal tradition.” Id. The plaintiff
bears the burden of showing that parcels “have been,
or would be, treated separately[.]” See Am. Sav. & Loan
Ass’n, 653 F.2d at 372.

97a
Three factors affect the appropriate denominator.
“First, courts should give substantial weight to the
treatment of the land, in particular how it is bounded
or divided, under state law.” Murr, 137 S. Ct. at 1945.
In so doing, courts should look to “whether and to what
degree the State’s law has accorded legal recognition
and protection to the particular interest in land with
respect to which the takings claimant alleges a diminution” and further weigh whether the State’s treatment of the land “accord[s] with other indicia of
reasonable expectations about property.” Id. at 194647. Whether the land was treated separately and how
any boundary lines were drawn prior to the “landowner’s acquisition . . . [are among] the objective factors that most landowners would reasonably consider
in forming fair expectations about their property.” Id.
at 1946. If the State law differentiates between parcels,
that weighs in favor of narrowing the denominator; if
the State treats them as an undifferentiated whole,
that weighs in favor of expanding the denominator. See
id. at 1948.
“Second, courts must look to the physical characteristics of the landowner’s property.” Id. at 1946.
“These include the physical relationship of any distinguishable tracts, the parcel’s topography, and the surrounding human and ecological environment.” Id. The
more physical similarity, the more a landowner might
reasonably “anticipate that his holdings would be
treated as one parcel” rather than as separate parcels.
Id. at 1946, 1948-49.

98a
“Third, courts should assess the value of the property under the challenged regulation, with special attention to the effect of burdened land on the value of
other holdings.” Id. at 1946. If “the market value of the
[surrounding] properties may well increase . . . [due to]
development restraints,” that “may counsel in favor of
treatment as a single parcel.” Id. In other words, a
court should ask if there is “a special relationship between the holdings” such that “the regulated lands add
value to the remaining property” by, for example, “increasing privacy, expanding recreational space, or preserving surrounding natural beauty.” Id.
These factors, especially the first requirement that
a court give “substantial weight to the treatment of
land . . . under state law,” id. at 1946, coincide with how
the Ninth Circuit has historically resolved denominator issues. One touchstone in Ninth Circuit precedent
has been that a denominator should be split if 1) state
law “adopt[s] different zoning designations for each
parcel” and 2) the parcels are “treated separately”
when “development plans are submitted and considered.” Am. Sav. & Loan Ass’n, 653 F.2d at 370-71. American Savings and Loan Association v. County of Marin,
653 F.2d 364 (9th Cir. 1981), drew this rule-of-thumb
from the Supreme Court’s 1928 decision in Nectow v.
City of Cambridge, 277 U.S. 183 (1928), in which:
a landowner owned a tract of 140,000 square
feet. Of that, 29,000 square feet were zoned
residential and the rest were unrestricted.
The landowner contended the residentially
zoned land had been taken. In judging the

99a
validity of the ordinance as a police power
measure, the court considered the smaller
tract separately from the larger tract.
Am. Sav. & Loan Ass’n, 653 F.2d at 370 (discussing
Nectow).
The Ninth Circuit applied the American Savings
rule in Kaiser Development Co. v. City & Cty. of Honolulu, 649 F. Supp. 926 (D. Haw. 1986), aff ’d, 898 F.2d
112 (9th Cir. 1990).8 Recognizing that “differential zoning tend[s] to require [ ] separate evaluation for takings purposes,” the Ninth Circuit agreed with the
district court’s conclusion that, “under the facts of this
case, Queen’s Beach is to be considered as a separate
parcel for the purposes of determining whether there
has been a taking.” 649 F. Supp. at 947 n.30, 948 (citing
Am. Sav. & Loan Ass’n, 653 F.2d at 371). The district
court explained:
Queen’s Beach is non-contiguous since it is
separated from the rest of Hawaii Kai by a
road; Queen’s Beach has not been developed
by Bishop as part of the residential community of Hawaii Kai; Bishop and Kaiser have
always considered Queen’s Beach a separate
area on which they seek to build a resort. Most
importantly, the City has treated Queen’s
Beach separately for zoning and planning purposes. The City has zoned Queen’s Beach for
preservation uses, while most of the rest of
8

The citations refer to the district court’s opinion because
the Ninth Circuit affirmed “for the reasons stated by Judge King.”
See Kaiser Dev. Co., 898 F.3d at 113.

100a
Hawaii Kai is zoned residential, and Queen’s
Beach has consistently had a different land
use designation from the rest of Hawaii Kai.
Under the General Plans of 1960 and 1964,
under the DLUMs of 1964 and 1966, under
the 1973 revised City Charter, and under the
1983 Development Plan, for example, Queen’s
Beach has been designated either commercial/resort or park/preservation, while the rest
of Hawaii Kai has been designated primarily
for residential use. In summary, under the
facts of this case, Queen’s Beach is to be considered a separate parcel. . . .
Id. at 947-48 (emphasis added).
Under Murr, American Savings, and Kaiser Development, the appropriate denominator is the 1,060
acres classified as urban, not also the 2,000 or so acres
that was classified as agricultural. The State, for periods relevant here, had adopted “different zoning designations for each parcel.” See Am. Sav. & Loan Ass’n,
653 F.2d at 370-71. The parties agree that the 1,060acre parcel was “the only part classified for Urban use
when Bridge [Aina Le‘a] bought the [3,000-acre] Property.” ECF No. 401, PageID # 9613; ECF No. 385-1,
PageID # 9302 (“[O]nly [the] 1,060 acres of land [w]as
urban”). The Land Use Commission’s sole attempt to
shift its classification was nullified by the Hawaii Supreme Court. See DW Aina Lea Dev., LLC v. Bridge
Aina Lea, LLC., 134 Haw. 187, 213-216 (2014). Thus,
the 1,060-acre parcel has been deemed separable from
the rest of the acreage. See Kaiser Dev. Co., 659 F. Supp.
at 948.

101a
The two parcels have also been “treated separately” when “development plans are submitted and
considered.” See Am. Sav. & Loan Ass’n, 653 F.2d at
370-71. Bridge Aina Le‘a’s development plans, its filings with the Land Use Commission, and the Land Use
Commission’s decisions and orders consistently distinguished between the two parcels and evinced a plan to
develop the 1,060-acre parcel separately. See ECF No.
382-11, PageID # 8063 (discussing Bridge Aina Le‘a’s
development plan pursuant to which “[t]he areas outside of the State Land Use ‘Urban’ District, which are
designated as ‘Agricultural’ by the State Land Use
Commission, will be developed as future phases and
therefore remain, for the most part, in their current
zoning and land use configuration” while the development in the urban district proceeds); see also, e.g., ECF
No. 382-1, PageID #s 7740, 7742; ECF No. 382-3,
PageID # 7773; ECF No. 382-6, PageID #s 7891-95;
ECF No. 382-11, PageID #s 8058-59. Based on the evidence presented at trial, it is clear that the urban lands
were treated “separately” for “planning purposes.” See
Kaiser Dev. Co., 649 F. Supp. at 948.
The State’s submission of “[n]ewly discovered evidence” in the form of an Environmental Impact Statement Preparation Notice (“EISPN”) submitted by
Bridge Aina Le‘a to the County of Hawaii Planning Department only serves to confirm these conclusions. See
ECF No. 385-1, PageID # 9315. The EISPN again distinguishes between the “approximately 1,933 acres of
the Project Area designated Agriculture” and the
“1,060 acres . . . in the Urban District.” See ECF No.

102a
385-2, PageID #s 9326, 9330. It describes development
plans that will “focus first on the Urban lands, and
later on the area [ ] in the Agricultural district.” See
ECF No. 385-2, PageID # 9329 (“[It is hoped] that development of the Urban area can proceed subject to
County approvals. The EIS can also serve as a source
of information for a petition to the State Land to reclassify land owned by Bridge in the Agricultural District to Rural, after which a petition to the County may
request zoning changes for that land.”).
The State emphasizes that the EISPN says that
there must be an Environmental Impact Statement
that “cover[s] the entire 3,000 acres.” ECF No. 385-1,
PageID # 9315 (citing ECF No. 385-2, PageID # 9326).
However, because the State differentiated the 1,060acre parcel from a zoning and developmental perspective, the Ninth Circuit’s decision in American Savings
indicates that it “must be analyzed as a separate parcel.” See 653 F.2d at 372 (emphasis added); cf. also
Murr, 137 S. Ct. at 1945 (“[C]ourts should give substantial weight to the treatment of the land . . . under
state law.” (emphasis added)).
An examination of the additional Murr factors
confirms this conclusion. The third Murr factor asks
whether the challenged regulation would “add value to
the [adjoining] property.” Murr, 137 S. Ct. at 1946. The
State points to no evidence in the record that it would.
This is not a case in which maintaining “development
restraints” on the 1,060-acre parcel will protect “unobstructed skyline views” on the adjoining 2,000 acres.
See id. at 1946, 1949. Because the adjoining acreage is

103a
largely undeveloped and classified as agricultural
land, see ECF No. 385-2, PageID # 9329, its market
value likely either decreased or remained unchanged
given the reversion order. Undeveloped property is presumably worth more (in economic terms) when it is
next to developed property than when it is next to undeveloped property. Individuals in a development may
value neighboring undeveloped land as “recreational
space.” See Murr, 137 S. Ct. at 1946; cf. ECF No. 38211, PageID #s 8059 (discussing Bridge Aina Le‘a’s plan
to install a “residential community” on the urban acreage and to install “golf courses” on the “agricultural
lots”). The third factor, like the first factor, weighs in
favor of splitting the denominator – or is at the very
least neutral.
The only Murr factor that may weigh in favor of
the State is the second factor, which looks at the physical characteristics of the landowner’s property. As the
State points out, the “entire 3,000 acres are contiguous
and constitute one area of land.” ECF No. 385-1,
PageID # 9302. The State also notes that there “is no
difference in the geographic or topological characteristics between the urban and agricultural portions.” Id.
Bridge Aina Le‘a did not dispute these characterizations of the evidence in the record in its Memorandum
in Opposition. See ECF No. ECF No. 401, PageID #s
9612-13. But contiguity and topological similarity do
not, without more, justify expanding the denominator.
Murr, American Savings, and Kaiser Development emphasize differential zoning and planning treatment.
This case remains one in which “reasonable

104a
expectations about property ownership would lead a
landowner to anticipate that his holdings would be
treated . . . as separate tracts.” Murr, 137 S. Ct. at
1945; see also Lost Tree Vill. Corp., 707 F.3d at 1293-95
(“[E]ven when contiguous land is purchased in a single
transaction, the relevant parcel may be a subset of the
original purchase where the owner develops distinct
parcels at different times and treats the parcel as distinct economic units.”).
At points, the State’s Renewed Motion attempts to
recast Murr’s analysis into an inquiry about what “the
project area” is. See, e.g., ECF No. 385-1, PageID # 9302
(arguing that the correct denominator is the “3,000
acres” because Bridge Aina Le‘a “purchased the entire
3,000 acres” and its “plans to develop the area viewed
the project area as consisting of 3,000 acres”). But the
lodestar of denominator analysis is not what the “project area” is; it is whether a reasonable landowner
would anticipate that his holdings would be treated
separately. See Murr, 137 S. Ct. at 1945. A reasonable
landowner in Bridge Aina Le‘a’s position certainly
would.
The court did not err in instructing the jury that
the 1,060-acre parcel was the proper denominator. The
jury’s finding of a Lucas taking is supported by adequate evidence as a result.9

9

The State also argues that the Ninth Circuit’s decision in
Colony Cove Properties, LLC v. City of Carson, 888 F.3d 445
(2018), is “instructive” vis-à-vis Bridge Aina Le‘a’s Lucas claim.
See ECF No. 392, PageID # 9413. The court cannot discern how

105a
4. Bridge Aina Le‘a’s Finding of a Penn
Central Taking Is Supported by Adequate Evidence.
The jury’s verdict is independently supported by
its finding that a taking occurred under a Penn Central
analysis. See Palazzolo, 533 U.S. at 632-33 (discussing
Penn Central Transp. Co. v. City of New York, 438 U.S.
104 (1978)); ECF No. 373. The court instructed the jury
concerning Penn Central as follows:
To determine whether the Land Use Commission’s action was a taking under Taking Analysis No. 2, you should consider three factors:
(1) The economic impact of the regulation on
Bridge Aina Le‘a,
(2) The extent to which the regulation has interfered with distinct investment-backed
expectations, and
(3) The character of the governmental action.
You must weigh these three factors to decide
whether the Land Use Commission’s action
went too far in its impact on Bridge Aina
Le‘a’s property. If, after considering these factors, you find by a preponderance of the evidence that the action went too far, you should
resolve Taking Analysis No. 2 in favor of
Bridge Aina Le‘a. If, on the other hand, you do
that might be so. Colony Cove concerned a takings claim under
Penn Central and does not appear to have any bearing on the validity of the jury’s Lucas verdict. See 888 F.3d at 450-55.

106a
not find by a preponderance of the evidence
that the action went too far, you should resolve Taking Analysis No. 2 in favor of the
Land Use Commission.
These are factors, not a set formula. No factor
by itself is necessarily determinative or conclusive. Primary among these factors are the
economic impact of the regulation on the
claimant and, particularly, the extent to which
the regulation has interfered with distinct investment-backed expectations.
ECF No. 372, PageID # 7459. This instruction was
given with the agreement of the parties.
Contrary to the State’s assertions, see ECF No.
385-1, PageID #s 9304-13, the jury reasonably concluded that all three Penn Central factors weigh in favor of Bridge Aina Le‘a.
a. Economic Impact.
The first Penn Central factor concerns the “economic impact of the regulation on the claimant.” Penn
Central, 438 U.S. at 124. The court instructed the jury:
you must consider the economic impact of the
Land Use Commission’s action in reverting
the property on Bridge Aina Le‘a.
Diminution in property value, standing alone,
cannot establish a taking under Taking Analysis No. 2.
The economic impact of the regulation on
Bridge Aina Le‘a may be measured by the

107a
change, if any, in the fair market value to
Bridge Aina Le‘a’s interest in the property
caused by the regulatory imposition.
Bridge Aina Le‘a must show that the Land
Use Commission’s action caused the economic
impact, not Bridge Aina Le‘a itself, a third
party, or independent circumstances.
ECF No. 372, PageID # 7461. This instruction was
given with the agreement of the parties.
The State claims that the evidence failed to show
a “legally sufficient economic impact.” ECF No. 385-1,
PageID # 9306. According to the State, “there is no evidence that the [Land Use Commission’s] action affected Bridge in any way.” Id. The State is mistaken on
multiple levels.
First, the State appears to rely, at least in part, on
its prior assertion that Bridge Aina Le‘a “sold the property” and retained only a token interest in the land.
ECF No. 385-1, PageID # 9293. As the court has already explained, the jury could have reasonably concluded that Bridge Aina Le‘a’s property interests in the
land were substantial and that its interests were adversely affected by the reversion. Even if Bridge Aina
Le‘a had sold its right to develop the property, the reversion order could have adversely affected the value
of other rights Bridge Aina Le‘a retained.
Second, as the State concedes, testimony at trial
indicated that the 1,060-acre property was “worth $40
million” if “in the urban district” and “$6.63 million” if
“in the agricultural district.” See ECF No. 392, PageID

108a
# 9412; ECF No. 401, PageID # 9617. That represents
an 83.5% diminution in value, and, as noted, there is
no reason to think that this diminution only concerned
alienated property interests. After hearing this evidence, the jury could have reasonably determined that
the economic impact of the regulation weighed in favor
of a taking under Penn Central.10
The Ninth Circuit’s recent decision in Colony Cove
Properties, LLC v. City of Carson, 888 F.3d 445 (2018),
is not to the contrary. According to the State, Colony
Cove held that an “83.5% diminution in value” can
never “be a taking.” ECF No. 392, PageID # 9412.
Colony Cove did not so hold.
In discussing the economic impact prong of Penn
Central, Colony Cove noted that a diminution in value
“ranging from 75% to 92.5% does not constitute a
10

Because the evidence concerning the diminution of the
property value suffices to support the jury’s verdict, the court
need not address the legal import of additional evidence presented concerning contractual, property tax, and insurance payments. See ECF No. 392, PageID #s 9412-13; ECF No. 401,
PageID #s 9617-18. Such evidence may not be relevant in divining
the economic impact of a regulation. See Colony Cove Props., 888
F.3d at 451 (stating only that “economic impact is determined by
comparing the total value of the affected property”). The State asserts in a footnote that DW Aina Le‘a’s “[in]ability to perform [ ]
contracts with Bridge” is not relevant to takings analysis. ECF
No. 385-1, PageID # 9306 n.1. The State does not cite law indicating that a contractual default is neither an “economic impact” nor
evidence of disruption to “investment-backed expectations.” Nor
did the State ask that the court’s jury instructions concerning
Penn Central’s first and second prongs tell the jury not to consider
such evidence. See ECF No. 372, PageID #s 7460-61.

109a
taking” without evidence concerning the additional
Penn Central factors. 888 F.3d at 451. Colony Cove further observed that “[t]he Federal Circuit has noted
that it is ‘aware of no case in which a court has found
a taking where diminution in value was less than
50%.’ ” Id. (quoting CCA Assocs. V. United States, 667
F.3d 1239, 1246 (Fed. Cir. 2011)). Thus, Colony Cove indicates only that a diminution in property value of less
than 50% will weigh heavily against a taking, and that
a diminution in value ranging between 75% and 92.5%
will not necessarily establish a taking. See id.; see also,
e.g., Laurel Park Cmty., LLC v. City of Tumwater, 698
F.3d 1180, 1189 (9th Cir. 2012) (explaining that “Supreme Court cases uniformly reject the proposition
that diminution in property value, standing alone, can
establish a taking,” and further explaining that
“[a]lthough there is no precise minimum threshold,
[evidence of an economic loss of less than 15%] is of
very little persuasive value in the context of a federal
takings challenge” (internal quotation marks and citations omitted)). The case does not suggest that an
83.5% diminution in value automatically makes the
first factor weigh against a takings claimant.
The State’s remaining arguments are equally unpersuasive. The State points to a rebound in the value
of the land after the reversion order, and to the profit
BAL eventually turned relative to its initial investment. See ECF No. 385-1, PageID #s 9308-09. These
circumstances do not negate Bridge Aina Le‘a’s temporary takings claim. While relevant to a just compensation calculation, they do not speak to the question of

110a
takings liability during the period in which the reversion order was in effect. See, e.g., First English, 482 U.S.
at 310; Williamson Cty. Reg’l Planning Comm’n v.
Hamilton Bank of Johnson City, 473 U.S. 172, 183 n.6
(1985); Herrington v. Cty. of Sonoma, 834 F.2d 1488,
1504-06 (9th Cir. 1987); Wheeler v. City of Pleasant
Grove, 833 F.2d 267, 271 (11th Cir. 1987); cf. TahoeSierra, 535 U.S. at 328 (“[W]here the government’s
activities have already worked a taking of all use of
property, no subsequent action by the government can
relieve it of the duty to provide compensation for the
period during which the taking was effective.” (emphasis omitted) (quoting First English, 482 U.S. at 321)).
Nor does it matter whether development on the
property was or was not proceeding apace. Cf. TahoeSierra, 216 F.3d at 783 n.33 (“[I]n most regulatory takings cases, there is no doubt whatsoever about whether
the government’s action was the cause of the alleged
taking.”). The State is mistaken in asserting that the
reversion could not have had an adverse economic impact on the property because development could not
“proceed for a variety of [independent] reasons.” See
ECF No. 385-1, PageID # 9309. Property can retain
value as a potential site for future development, regardless of whether antecedent obligations – like the
need to “obtain final subdivision approval” and to prepare an EIS – must be satisfied. See id. And a facially
permanent zoning reclassification can undoubtedly
harm such future development value by forbidding any
such development outright.

111a
The State’s argument may indeed relate to
whether the reversion order harmed Bridge Aina Le‘a
in a specific manner, i.e., by causing a delay in the
opening of the proposed residential community. Cf.
ECF No. 385-1, PageID # 9310 (arguing that “Bridge’s
claim to economic impact depends . . . on the magical
thinking that if only the reversion had not occurred
somehow the development would have succeeded”).
But that was not the adverse economic impact before
the jury. See Colony Cove Props., 888 F.3d at 451
(“[E]conomic impact is determined by comparing the
total value of the affected property before and after the
government action.”). The evidence at trial focused on
the effect of the reversion on the value of the property,
not on whether the reversion forestalled the receipt of
revenue from future housing sales. The evidence established that the reversion caused the decrease in value.
Finally, the State’s reply adds that “the economicimpact factor, if not satisfied, is case dispositive.” ECF
No. 403, PageID #9663. As discussed above, the jury
could have reasonably found that the economic impact
factor was satisfied, but the court further notes that
the State’s characterization of the Penn Central factors
is incorrect. As stated in the court’s Penn Central jury
instructions, “[n]o factor by itself is necessarily determinative or conclusive.” ECF No. 372, PageID # 7459.
Further, the cases cited by the State make clear that
Penn Central did not establish a “set formula” such
that any one factor is dispositive. See, e.g., Guggenheim
v. City of Goleta, 638 F.3d 1111, 1121 (9th Cir. 2010).

112a
b. Distinct Investment-Backed Expectations.
The second Penn Central factor goes to “the extent
to which the regulation has interfered with distinct investment-backed expectations.” MHC Fin. Ltd. P’ship
v. City of San Rafael, 714 F.3d 1118, 1127 (9th Cir.
2013). The court instructed the jury:
The primary factor is the extent to which the
regulation has interfered with Bridge Aina
Le‘a’s reasonable distinct investment-backed
expectations.
In deciding whether (and to what extent) this
factor weighs in favor of Bridge Aina Le‘a or
the Land Use Commission, you should ask: (1)
Did Bridge Aina Le‘a have an expectation that
the government’s action interfered with? (2) If
so, was that expectation settled? (3) Was that
expectation reasonable? (4) Was that expectation investment-backed? Distinct investmentbacked expectations are measured at the time
the claimant acquires the property.
“Distinct investment-backed expectations”
implies reasonable probability. Whether a
particular expectation is reasonable is judged
from the point of view of a reasonable investor
in Bridge Aina Le‘a’s position at the time of its
investment.
A distinct investment-backed expectation
must be probable enough to materially affect
the price or value of the property.

113a
ECF No. 372, PageID # 7461. This instruction was
given with the agreement of the parties.
The State asserts that this factor does not support
a verdict in Bridge Aina Le‘a’s favor. See ECF No. 3851, PageID # 9305. The State relies on the Ninth Circuit’s 2010 Guggenheim decision, which held:
“Distinct investment-backed expectations”
implies reasonable probability, like expecting
rent to be paid, not starry eyed hope of winning the jackpot if the law changes. . . . Speculative possibilities of windfalls do not
amount to “distinct investment-backed expectations,” unless they are shown to be probable
enough materially to affect the price.
638 F.3d at 1120.
In Guggenheim, the Ninth Circuit determined
that the plaintiffs’ expectations were not “reasonably
probable” because they “bought a trailer park burdened by rent control, and had no concrete reason to
believe that they would get something much more valuable, because of hoped-for legal changes, than what
they had.” Id. at 1120-21; see also, e.g., Esplanade
Props., LLC v. City of Seattle, 307 F.3d 978, 987 (9th
Cir. 2002) (“Esplanade . . . took the risk, when it purchased this large tract of tidelands in 1991 for only
$40,000, that, despite extensive federal, state, and local regulations restricting shoreline development, it
could nonetheless overcome those numerous hurdles to
complete its project and realize a substantial return on

114a
its limited initial investment.” (internal quotation
markets omitted)).
There is ample evidence concerning Bridge Aina
Le‘a’s investment-backed expectations for the property.
See ECF No. 401, PageID #s 9620-21. But according to
the State, Bridge Aina Le‘a’s investment-backed expectations were not reasonable, as they were allegedly
grounded on a “starry eyed hope” of a change in the
law. See ECF No. 385-1, PageID #s 9305-06. The State
points to Bridge Aina Le‘a’s purchase of property “with
an affordable-housing condition attached that [Bridge
Aina Le‘a] admitted would render the development of
the property economically unviable.” Id. The State
then argues that at the time of the acquisition the likelihood that this condition would be amended was not
a “reasonable probability” but rather a “mere ‘starry
eyed hope.’ ” Id. at PageID #s 9605-06 (quoting
Guggenheim, 638 F.3d at 1120).
The State has failed to carry its burden of showing
that the evidence requires a conclusion contrary to the
jury’s verdict. See Pavao v. Pagay, 307 F.3d 915, 918
(9th Cir. 2002); Enovsys LLC v. AT&T Mobility LLC,
No. CV 11-5210 SS, 2015 WL 11089498, at *4 n.5 (C.D.
Cal. Nov. 16, 2015). The record itself, moreover, belies
any contention that Bridge Aina Le‘a lacked a “reasonable probability” that the law would be amended.
There was evidence that similar amendments had
been obtained by other developers in six other instances. See ECF No. 382-12, PageID #s 8125-26; ECF
No. 401, PageID # 9619 (referencing testimony by
Baldwin and Paoa). Bridge Aina Le‘a paid $5,000,000

115a
for the land despite the affordable-housing condition, a
sum that suggests an expectation that the “economically unviable” land-use condition would be amended.
See ECF No. 382, PageID # 8464; Guggenheim, 638
F.3d at 1120 (explaining that conditions are reasonably
probable when they are “probable enough materially to
affect the price”); cf. Esplanade Props., 307 F.3d at 987
(reasoning that an insubstantial “$40,000” purchase
price indicated that the plaintiff lacked a reasonable
investment-backed expectation).
Bridge Aina Le‘a presented evidence that it anticipated receiving a 20% return on its initial investment,
which is similarly inconsistent with the presence of an
“economically unviable” land-use condition unlikely to
be amended. See ECF No. 401, PageID # 9619 (describing testimony from Baldwin). And, of course, the condition was, in fact, amended. See ECF No. 401, PageID
# 9619.
A reasonable jury could have concluded that the
second Penn Central factor weighed in favor of Bridge
Aina Le‘a.
c.

The Character of the Governmental Action.

The jury’s Penn Central verdict can likely be sustained solely based on the state of the record as it concerns the first two Penn Central factors. See Laurel
Park Cmty., 698 F.3d at 1191 (in a parenthetical, stating that “the first two factors are the ‘primary’ factors
to consider; the character of the governmental action

116a
is not on equal footing” (citing Guggenheim, 638 F.3d
at 1120)); see also Lingle v. Chevron U.S.A. Inc., 544
U.S. 528, 540 (2005) (“[T]he Penn Central inquiry turns
in large part, albeit not exclusively, upon the magnitude of a regulation’s economic impact and the degree
to which it interferes with legitimate property interests.”). But the jury could have reasonably concluded
that the third factor also weighed in favor of Bridge
Aina Le‘a.
The court instructed the jury concerning this factor as follows:
Remember that Taking Analysis No. 2 turns
in large part but not exclusively on the first
two factors that I just described to you. The
third factor, the character of the governmental
action, may also be relevant in discerning
whether a taking has occurred.
In determining the character of the government action, you may look to a number of factors, including whether the Land Use
Commission acted improperly in that its regulation was calculated to discriminate against
Bridge Aina Lea or singled out Bridge Aina
Lea for differential treatment in an arbitrary
manner. You may also decide whether the action is akin to a physical invasion of land, or
if it instead merely affects property interests
through some public program adjusting the
benefits and burdens of economic life to promote the common good.
In deciding whether this third factor weighs
overall in favor of Bridge Aina Lea or the

117a
Land Use Commission, you may rely on as
many or as few of the above considerations as
you find applicable.
ECF No. 372, PageID # 7462. This instruction was
given with the agreement of the parties.
The jury could have reasonably concluded that the
character of the government action weighed in favor of
a taking. The reversion order was an adjudicative decision that directly affected the owners of the property.
Credible testimony indicated that the Land Use Commission intended the reversion to “force Bridge to sell
the Property to another owner/developer.” See ECF No.
401, PageID #s 9622-23 (discussing Meyer’s testimony). Additional evidence indicated that the Land
Use Commission had not taken adverse action against
other developers whose projects suffered from even
longer delays, which a reasonable jury could view as
establishing that Bridge Aina Le‘a had been treated
unfairly and differently from other similarly situated
developers. See id. at PageID # 9624 (discussing
Devens’s testimony concerning other developers, and
further noting that there is “no dispute that the LUC’s
decision to revert the Property’s classification was the
first time in its 50 year history that it had taken such
action”); ECF No. 382-7, PageID #s 7928-31. Finally,
under Hawaii law, the reversion of the property was
unlawful. See DW Aina Le‘a, LLC v. Bridge Aina Le‘a,
LLC, 134 Haw. 187, 213-16 (2014) (holding that the
Land Use Commission acted illegally by failing to follow applicable procedures in Haw. Rev. Stat. § 205-4).

118a
There was, in short, ample evidence supporting a
finding that the reversion was not akin to “some public
program adjusting the benefits and burdens of economic life to promote the common good.” See Lingle,
544 U.S. at 539 (quoting Penn Central, 438 U.S. at 124);
see also, e.g., Sherman v. Town of Chester, 752 F.3d 554,
565 (2d Cir. 2014) (“In this case, the Town’s actions are
not part of a public program adjusting the benefits and
burdens of public life. Rather, the Town singled out
Sherman’s development, suffocating him with red tape
to make sure he could never succeed in developing
MareBrook.”); Heitman v. City of Spokane Valley, No.
CV-09-0070-FVS, 2010 WL 816727, at *5 (E.D. Wash.
Mar. 5, 2010) (indicating that proper character considerations include whether the government “acted improperly” and whether the landowner had been
unfairly “singled out for differential treatment”), aff ’d
sub nom. Conklin Dev. v. City of Spokane Valley, 448 F.
App’x 687 (9th Cir. 2011); Thomas Merrill, Character
of Government Action, 36 Vt. L. Rev. 649, 664-67 (2012)
(explaining that many courts understand the distributional impact of governmental action – i.e., whether its
burdens are concentrated or diffuse – as speaking to
the “character” of the action).
The State’s arguments to the contrary are unpersuasive. The State takes issue with Bridge Aina Le‘a’s
failure to offer additional evidence concerning the
“other [Land Use Commission] dockets” involving the
other developers. See ECF No. 385-1, PageID # 9312
(describing the Hawaii Supreme Court’s holding that
Bridge Aina Le‘a failed to “demonstrate[ ] that they

119a
were treated differently than other similarly situated
developers because the documents from the LUC cases
involving the other developers were not properly included in the record on appeal” (quoting DW Aina Le‘a,
134 Haw. at 220)). But the evidence that Bridge Aina
Le‘a did offer already suffices to support the jury’s verdict. The absence of additional proof related to certain
Land Use Commission dockets does not undermine the
evidence presented.
The State also asserts that the character prong
weighs against a taking because the Hawaii Supreme
Court denied Bridge Aina Le‘a’s equal protection claim.
See id. (discussing DW Aina Le‘a, 134 Haw. 187). The
State asserts that this negates Bridge Aina Le‘a’s proof
“that it was treated differently or unfairly.” Id. The
State’s reliance on the Hawaii Supreme Court’s opinion is unpersuasive on multiple levels.
First, the Hawaii Supreme Court’s opinion concerned a different standard, under which Bridge Aina
Le‘a was required to prove that it had “been intentionally treated differently from others similarly situated
and that there [wa]s no rational basis for the difference
in treatment.” DW Aina Le‘a, 134 Haw. at 220 (quoting
Vill. Of Willowbrook v. Olech, 528 U.S. 562, 564 (2000)).
The Hawaii Supreme Court was unable to say that the
Land Use Commission’s actions were “irrational.” Id.
While there is little case law speaking directly to
this issue, it does not make sense to require a takings
plaintiff to establish a violation of the Equal Protection
Clause to prove that the character of the governmental

120a
action weighs in favor of a taking. It is not clear why a
plaintiff would always be barred from showing unfair
and unequal treatment on the ground that such differential treatment is not so out of bounds as to be considered irrational. Cf. McClung v. City of Sumner, 548
F.3d 1219, 1227 (9th Cir. 2008) (finding that the character prong favored the government in part because
the facts of the case did not involve “an adjudicative
determination applicable solely to the McClungs”),
abrogated on other grounds, Koontz v. St. Johns River
Water Mgmt. Dist., 570 U.S. 595 (2013); Wash. Legal
Found. v. Legal Found. of Wash., 271 F.3d 835, 861 (9th
Cir. 2001) (explaining that the character prong favored
the government in part because “neither Brown nor
Hayes is being singled out to bear a burden that should
be borne by the public as a whole”), aff ’d on other
grounds sub nom. Brown v. Legal Found. of Wash., 538
U.S. 216 (2003).
Second, the evidence before the jury differs from
the evidence that was before the Hawaii Supreme
Court. The Hawaii Supreme Court’s decision was
based in part on a lack of evidence speaking to whether
Bridge Aina Le‘a was “treated differently,” after Bridge
Aina Le‘a had tried unsuccessfully to introduce “documents from the LUC cases involving the other developers.” DW Aina Le‘a, 134 Haw. at 217, 220. At trial,
Bridge Aina Le‘a did not offer “exhibits as to other
dockets.” ECF No. 385-1, PageID # 9312. Its proof concerning the alleged differential treatment took the
form of different documents and live testimony. See
ECF No. 401, PageID # 9624. Ultimately, the Hawaii

121a
Supreme Court’s opinion did not preclude the jury
from reaching its own conclusion regarding the distinguishable issue of the character of the governmental
action. The jury in this case had evidence supporting a
finding of unfair and differential treatment.
Finally, the Hawaii Supreme Court’s opinion does
not address a variety of additional considerations under the character prong – including, as noted, whether
the Land Use Commission suffocated Bridge Aina Le‘a
in “red tape,” “acted improperly,” or made “an adjudicative determination” involving concentrated rather
than diffuse costs. See Sherman, 752 F.3d at 565;
McClung, 548 F.3d at 1227; Heitman, 2010 WL 816727,
at *5.
Shifting tactics, the State argues that the character prong must cut in its favor because the governmental action involved the enforcement of a “long-standing
condition” that was “requested” by Bridge Aina Le‘a.
See ECF No. 385-1, PageID # 9310 (citing Guggenheim,
638 F.3d at 1120). The State overreads Guggenheim.
That case does not support the proposition that when
a State unlawfully attempts to enforce an “old” and “requested” land-use condition, the character of its action
will invariably weigh against a taking. See Guggenheim, 638 F.3d at 1120.
The State similarly fails to cite any case supporting its position that the character prong weighs in its
favor when there is “no physical invasion, occupation,
or restraint placed on the property, and [the] plaintiff
[i]s permitted to use the property in many different

122a
ways.” ECF No. 385-1, PageID # 9311. Whether there
has been an actual physical invasion of property is not
the test; if it were, the character inquiry would be superfluous. See Horne v. Dep’t of Agric., 135 S. Ct. 2419,
2427 (2015) (discussing a takings analysis under
Loretto v. Teleprompter Manhattan CATV Corp., 458
U.S. 419 (1982), pursuant to which “a physical appropriation of property . . . g[ives] rise to a per se taking”
(emphasis omitted)). Similarly, whether some uses of
property are “permitted” may be relevant to a Lucas
analysis, but that inquiry does not address whether
government action is akin to “a public program adjusting the benefits and burdens of economic life to promote the common good.” See Lingle, 544 U.S. at 539
(quoting Penn Central, 438 U.S. at 124).
The jury could have reasonably concluded that all
three Penn Central factors weighed in favor of a taking.
B. The State Is Not Entitled to a New
Trial.
The State claims that it is entitled to a new trial
on three grounds. None has merit.
First, the State argues that the court erroneously
removed the denominator question from the jury. See
ECF No. 385-1, PageID #s 9314-16. For the reasons
already discussed, the court did not err in resolving
that issue itself.
Second, the State insists that the court erroneously instructed the jury that Bridge Aina Le‘a’s

123a
takings claim is based upon “the U.S. Constitution” and
also asserts that opposing counsel “abused this instruction at closing argument.” Id.; see also ECF No.
339, PageID # 7099 (arguing that the “jury does not
need to know that the law emerges from the [C]onstitution, a statute, or the common law, only what the law
is”). This argument is unpersuasive. There is no bar on
referring to the Constitution in United States courtrooms. In any event, the State fails to discuss, let alone
demonstrate, how the court’s reference to the Constitution or opposing counsel’s discussion of it caused any
prejudice. A new trial requires more than a bald assertion of error. See Ruvalcaba v. City of Los Angeles, 64
F.3d 1323, 1328 (9th Cir. 1995).
Finally, the State claims that the verdict is
“against the great weight of the evidence” for “all of the
reasons stated” earlier in its motion. ECF No. 385-1,
PageID # 9314. This court has earlier in this Order
addressed those reasons. Cf. Power Integrations, Inc. v.
Fairchild Semiconductor Int’l, Inc., No. 09-CV-05235MMC, 2016 WL 4446991, at *11 (N.D. Cal. Aug. 24,
2016) (denying a motion for new trial when “Fairchild
makes no attempt, apart from essentially incorporating by reference the arguments addressed above, to
show the verdict is ‘contrary to the clear weight of the
evidence,’ based on ‘evidence which is false,’ or a ‘miscarriage of justice’ ” (quoting Hanson v. Shell Oil Co.,
541 F.2d 1352, 1359 (9th Cir. 1976))).
The State does raise one additional specific argument in support of its view that the verdict is against
“the great weight of the evidence,” but the argument is

124a
unsupported. The State claims that Bridge Aina Le‘a’s
“expert Stephen Chee was not reliable because he was
not using an actual plan, was not aware of the data,
and was using numbers based upon a fictitious development in the subdivision method, which is notoriously sensitive to small changes.” ECF No. 385-1,
PageID # 9314. The State does not explain its reasoning further, cite to anything in the record, or discuss
how a rejection of Chee’s testimony might have affected the adequacy of the jury’s verdict. See id.
The court is not convinced that Chee’s opinion was
so lacking in reliability that a new trial is warranted.
Quite simply, the State has “not demonstrated its entitlement to a new trial.” S. Tahoe Pub. Util. Dist. v.
1442.92 Acres or Land in Alpine Cty., No. 2:02-CV0238-MCE-JFM, 2006 WL 2308288, at *2 (E.D. Cal.
Aug. 9, 2006); see also Gonzales v. Arrow Fin. Servs.
LLC, No. 05CV0171 JAH(RBB), 2010 WL 11508991, at
*5 (S.D. Cal. Feb. 18, 2010).
V.

CONCLUSION.

The Renewed Motion for Judgment as a Matter of
Law or, in the Alternative, for a New Trial, is DENIED.

125a
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, June 27, 2018.
[SEAL]
/s/ Susan Oki Mollway
Susan Oki Mollway
United States District Judge
Bridge Aina Le‘a, LLC v. Hawaii Land Use Comm’n et
al., Civ No. 11-00414 SOM-KJM; ORDER DENYING
STATE OF HAWAII’S RENEWED MOTION FOR
JUDGMENT AS A MATTER OF LAW OR, IN THE
ALTERNATIVE, FOR A NEW TRIAL.

126a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
BRIDGE AINA LE‘A, LLC,
)
)
Plaintiff,
)
vs.
)
STATE OF HAWAII LAND
)
USE COMMISSION; VLADI- )
MIR P. DEVENS, in his indi- )
vidual and official capacity;
)
KYLE CHOCK, in his individ- )
ual and official capacity;
)
THOMAS CONTRADES, in his )
individual and official capacity; )
LISA M. JUDGE, in her indi- )
vidual and official capacity;
)
NORMAND R. LEVI, in his
)
individual and official capacity; )
NICHOLAS W. TEVES, JR.,
)
in his individual and official ca- )
pacity; RONALD I, HELLER, )
in his individual and official
)
capacity; DUANE KANURA, in )
his official capacity; CHARLES )
JENCKS, it his official capac- )
ity; JOHN DOES 1-10; JANE )
DOES 1-10; DOE PARTNER- )
SHIPS 1-10.; DOE CORPORA- )
TIONS 1-10; DOE ENTITIES )
2-10; and DOE GOVERNMEN- )
TAL UNITS 1-10,
)
)
Defendants.

Civ. No. 11-00414
SOM-KJM
VERDICT FORM
(Filed Mar. 23, 2018)

127a
VERDICT FORM
Please answer both questions below. Each answer
must be unanimous.
We, the jury, answer the questions submitted to us
as follows:
1.

Has Bridge Aina Le‘a proved by a preponderance of the evidence that a taking occurred
under Taking Analysis No. 1?
Answer: YES X

NO ___

Proceed to Question 2.
2.

Has Bridge Aina Le‘a proved by a preponderance of the evidence that a taking occurred
under Taking Analysis No 2?
Answer: YES X

NO ___

The foreperson should sign and date the back of this
verdict form.
/s/ Jack Shockly
Foreperson

3/23/2018
Date

128a
APPENDIX E
Hawaii Revised Statutes.
§ 205-4.5. Permissible uses within the agricultural districts.
(a) Within the agricultural district, all lands with
soil classified by the land study bureau’s detailed land
classification as overall (master) productivity rating
class A or B and for solar energy facilities, class B or C,
shall be restricted to the following permitted uses:
(1) Cultivation of crops, including crops for bioenergy, flowers, vegetables, foliage, fruits, forage,
and timber;
(2)

Game and fish propagation;

(3) Raising of livestock, including poultry, bees,
fish, or other animal or aquatic life that are propagated for economic or personal use;
(4) Farm dwellings, employee housing, farm
buildings, or activities or uses related to farming
and animal husbandry. “Farm dwelling”, as used
in this paragraph, means a single-family dwelling
located on and used in connection with a farm, including clusters of single-family farm dwellings
permitted within agricultural parks developed by
the State, or where agricultural activity provides
income to the family occupying the dwelling;
(5) Public institutions and buildings that are
necessary for agricultural practices;
(6) Public and private open area types of recreational uses, including day camps, picnic grounds,

129a
parks, and riding stables, but not including dragstrips, airports, drive-in theaters, golf courses, golf
driving ranges, country clubs, and overnight
camps;
(7) Public, private, and quasi-public utility lines
and roadways, transformer stations, communications equipment buildings, solid waste transfer
stations, major water storage tanks, and appurtenant small buildings such as booster pumping stations, but not including offices or yards for
equipment, material, vehicle storage, repair or
maintenance, treatment plants, corporation yards,
or other similar structures;
(8) Retention, restoration, rehabilitation, or improvement of buildings or sites of historic or scenic
interest;
(9) Agricultural-based commercial operations as
described in section 205-2(d)(15);
(10) Buildings and uses, including mills, storage,
and processing facilities, maintenance facilities,
photovoltaic, biogas, and other small-scale renewable energy systems producing energy solely for
use in the agricultural activities of the fee or leasehold owner of the property, and vehicle and equipment storage areas that are normally considered
directly accessory to the above-mentioned uses
and are permitted under section 205-2(d);
(11)

Agricultural parks;

(12) Plantation community subdivisions, which
as used in this chapter means an established subdivision or cluster of employee housing, community buildings, and agricultural support buildings

130a
on land currently or formerly owned, leased, or
operated by a sugar or pineapple plantation; provided that
*

*

*

